No.
In the

Supreme Court of the United States
CANVS CORPORATION,

Petitioner,

v.
SECRETARY OF THE AIR FORCE,

Respondent.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

------------------------------------------

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
------------------------------------------

Joseph J. Zito
Counsel of Record
DNL ZITO CASTELLANO
1250 Conn. Avenue, N.W.
Suite 700
Washington, DC 20036
(202) 466-3500
jzito@dnlzito.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

TABLE OF CONTENTS
Appendix
Page:
Judgment
United States Court of Appeals
for the Federal Circuit
entered January 9, 2020 ..................................... 1a
Opinion by
Administrative Judge Peacock
Armed Services Board of Contract Appeals
entered November 15, 2019 ................................ 3a
Opinion by
Administrative Judge Peacock
on Appellant's Motion to Recuse
Armed Services Board of Contract Appeals
entered September 30, 2016 ........................... 129a
Government Exhibit 138
undated Powell Summary ............................... 148a

1a
[ENTERED JANUARY 9, 2020]
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
CANVS CORPORATION,
Appellant
v.
SECRETARY OF THE AIR FORCE,
Appellee
______________________
2019-1190
______________________
Appeal from the Armed Services Board of Contract
Appeals in Nos. 57784, 57987, Administrative Judge
J. Reid Prouty, Administrative Judge Richard
Shackleford, Administrative Judge Robert T.
Peacock.
______________________
JUDGMENT
______________________
JOSEPH J. ZITO, DNL ZITO, Washington, DC,
argued for appellant. Also represented by LUIZ
FELIPE DE OLIVEIRA.
PATRICIA M. MCCARTHY, Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, DC, argued for appellee. Also
represented by ANTHONY F. SCHIAVETTI,

2a
JOSEPH
H.
HUNT,
KIRSCHMAN, JR.

ROBERT

EDWARD

______________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (LOURIE, MOORE, and STOLL,
Cir cuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
January 9, 2020
Date

/s/ Jarrett B. Perlow
Jarrett B. Perlow
Chief Deputy Clerk

3a
[ENTERED NOVEMBER 15, 2018]
ARMED SERVICES BOARD OF
CONTRACT APPEALS
Appeals of -)
CANVS Corporation
)
Under Contract No.
)
USZA22-03-C-0027
)
ASBCA Nos. 57784, 57987
APPEARANCE FOR THE APPELLANT:
Joseph J. Zito, Esq.
DNL ZITO
Washington, DC
APPEARANCES FOR THE GOVERNMENT:
Jeffrey P. Hildebrant, Esq.
Air Force Deputy Chief Trial Attorney
Chun-I Chiang, Esq.
Joel B. Lofgren, Esq. Trial Attorneys
OPINION BY ADMINISTRATIVE
JUDGE PEACOCK
These appeals arise from a contracting officer's
deemed denial and final decision involving a claim
for $100 million asserting breach of contract for

4a
the
unauthorized
disclosure
of
allegedly
proprietary information delivered under the
contract Only entitlement is before us for decision.
We dismiss ASBCA No. 57784 as duplicative. We
deny ASBCA No. 57987 for the reasons indicated
below.
FINDINGS OF FACT
A. The Small Business Innovation Research
(SBIR) Program
1. The SBIR program assists small business
concerns in obtaining and performing innovative
research and development (R&D) work. See Small
Business Innovation Development Act of 1982,
Pub. L. No. 97-219, sec. 4, § 9, 96 Stat. 217
(codified as amended at 15 U.S.C. § 638). The
SBIR program has three phases.
Phase I
"determining ...the scientific and technical merit
and feasibility of ideas that appear to have
commercial potential." 15 U.S.C. § 638(e)(4)(A).
Phase II "further develop[s] proposals which meet
particular program needs."
15 U.S.C. §
638(e)(4)(B).
Phase III involves "commercial
applications of SBIR-funded research or research
and development" or "products or services intended
for use by the Federal Government, by follow-on
non-SBIR Federal funding awards" or "the

5a
continuation of research or research and
development that has been competitively selected
using peer review or merit based selection
procedures." 15 U.S.C. § 683(e)(4)(C). (GPF ¶ 1)1
2. The federal agency in charge of overseeing
the SBIR program is the Small Business
Administration (SBA) (GPF ¶ 2). To implement the
SBIR legislation, the SBA issued policy directives
and regulations (GPF ¶ 3).
3. SBA Regulations require the small business
receiving an SBIR contract to conduct research
and development during SBIR Phase I and Phase
II. The primary objective of a Phase I SBIR
1 The Board issued a Briefing Order requiring the parties to
propose, in their initial post-hearing briefs, numbered and
detailed findings of fact with supporting citations to the
record. The parties were directed to note detailed, specific
objections to the opposing party's proposed findings (GPFs or
APFs) and citations to the record in the initial brief, if any.
Accordingly, the Board has adopted undisputed (or
undisputed portions) of the parties' proposed findings as our
own factual findings, without the accompanying supporting
citations to the record.
However, for reasons discussed in the Decision portion of this
Opinion, appellant failed substantively to comply with the
Briefing Order.
Consequently, we have relied to a
considerable extent on the government's proposed findings in
our Findings of Fact herein.

6a
contract is to prepare a paper study. A prototype is
permitted to be developed and delivered under a
SBIR Phase II contract. (GPF if 4) A SBIR Phase
III contract is not funded by SBIR appropriations
(tr. 6/64, 68, 135-36, 8/166-67, 180). The 2002 SBIR
Policy Directive stated that "SBIR Phase III...is
funded by sources other than the SBIR Program"
(GPF ¶ 6).
4. Department of Defense (DoD) Federal
Acquisition Regulation Supplement (DFARS)
clause
252.227-7018,
RIGHTS
IN
NONCOMMERCIAL TECHNICAL DATA AND
COMPUTER SOFTWARE-SMALL BUSINESS
INNOVATION RESEARCH (SBIR) PROGRAM
(JUN 1995) (the 7018 clause), is the technical data
rights clause used in the DoD SBIR program
contracts. See DFARS 227.7104(a) (prescribing
the use of the 7018 clause).
B. Background of Night and Color Vision
Science as of June 2005
5. In general, visible light, e.g., light visible to
the human eye, spans a narrow range of the
electromagnetic spectrum, ranging between 400
and 700 nanometers (mn) in wavelengths.
Wavelengths below 400 mn begin to transition into
the ultraviolet (UV) range and those greater than

7a
700 mn begin to transition into the infrared (IR)
range. The wavelength range between 700 and
900 mn is referred to as "near infrared." (GPF ¶¶
54-56)
6. Under low light conditions, such as night,
the sensitivity of the human eye drifts towards the
lower frequencies or the infrared range. Typically,
the human eye is sensitive to visible and infrared
light in the range between 400 and 600 nm. This
wavelength range is typically referred to as the
"photopic band." (GPF ¶ 57)
7. In the context of human perception, the term
"color'' has a scientific definition and the term
"color'' denotes a perception, not wavelengths. The
term "true color" has a scientific definition and it
means that the perceived color is the same
irrespective of the different levels of illuminationi.e., all viewers would agree that a green wire is
green, a red is red, a purple wire is purple,
regardless if there are clouds out, if it is daytime, or
if there is artificial lighting. (GPF ¶¶ 58-59) The
term '"life-like color" has a scientific definition and
it means those colors associated with a scene that
are within our experience. The term "pseudo color"
has a scientific definition and it means the
assignment of a color to a brightness level. The
term "false color'' has a scientific definition and it

8a
means the assignment of a color to an image taken
in a specific spectral band. (GPF ¶¶ 60-62)
8. The term "contrast" has a scientific
definition and it means the brightness of a
particular spot in the scene. The term "contrast"
has no relationship to color. (GPF ¶¶ 63-64)
9. The term "color contrast" has a scientific
definition and it means a comparison or
differentiation of the level of brightness. Human
perception of color is created out of color contrast.
It is a surreal notion that colors are a perception
and do not actually exist. Oranges are not actually
orange, but generally humans perceive them as
orange. The sky is not actually blue, but generally
humans perceive it as blue. (GPF ¶¶ 65-66)
10. A monocular percept is a percept generated
in the human or biological brain as a result of an
input to just one eye. The term "monocular color"
has a scientific definition and it means a percept
generated in the brain as a result of color contrast
signals input into just one eye. (GPF ¶¶ 67-68)
11. If a red image and green image are
presented one on top of another to a monocular
visual process, a yellow percept is created. Color
perception is a monocular visual process that
creates a stable and lasting percept. Because color

9a
perception is a monocular visual process, if a red
image is presented to one eye, and a green image is
presented to another eye, color mixing is not
possible, and as a result, there will not be a yellow
percept. When both eyes perceive the same colored
scene, each colored scene is still generated by the
monocular visual process for one eye independent
of a separate monocular visual process that
generates an identical color scene for the other eye.
The color percept for each eye is still monocular
color. (GPF ¶¶ 69-72)
12. The term "binocular vision" has a scientific
definition and it means a percept generated in the
brain that is a result of inputs to both eyes.
Binocular vison allows humans to perceive depth.
(GPF ¶ 73) The term "binocular rivalry" has a
scientific definition and it means a percept
generated in the brain that is a result of disparate
inputs to two eyes, prompting the brain to shutoff
the input from one eye. The brain could also
alternate the inputs from the two eyes. The
binocular rivalry phenomenon is well established
and was first documented in the 1830s. (GPF ¶ 74)
The term "binocular color rivalry" has a scientific
definition and it occurs when the color perceived by
one eye is different from the color perceived by the
other eye causing the brain to shut down the color

10a
pathway from one eye. When one eye is viewing a
single color, there is no contrast that would permit
a stable color percept, causing that color to fade to
gray. When one eye is viewing a scene consisting of
a single color and the other eye is viewing a scene
consisting of an entirely different color, there is no
color contrast in either eye. This results in color
rivalry where the brain will alternate between the
inputs. (GPF ¶ 75)
13. One deleterious physiological side effect of
binocular color rivalry is nausea. Another
deleterious side effect of binocular color rivalry is
headache. (GPF ¶ 76)
14. In the 1950s, Dr. Edwin H. Land, the
founder of Polaroid Corporation, conducted a series
of experiments that led to the Land's Retinex
Theory of Color Vision (Land Theory). Dr. Land
proved definitively that color percept does not
directly correspond to wavelengths. Rather, he
proved that one can achieve nearly full true color
with only two narrow bands of visible light
wavelength.
In his experiments, Dr. Land
separated the photopic band into thirds: a short
wavelength band (generally understood to be blue),
a medium wavelength band (generally understood
to be yellow), and a long wavelength band
(generally understood to be orange/red). He then

11a
eliminated completely the short wavelength band,
but was still able to achieve full color perception,
including blue percepts, from the remaining two
wavelength bands. (GPF ¶ 77) Importantly, Dr.
Land's work involved the superimposition of the
two wavelength bands prior to a monocular
presentation to each eye-i.e., each eye saw the
same thing (tr. 6/195-96; ex. G-149). His work did
not involve the presentation of one waveband band
to one eye and another waveband to another eye
(GPF ¶ 78).
15. At night, the amount of visible light is low
while other parts of the spectrum, such as nearinfrared, are more abundant. As a result, various
night vision technologies have been created to help
both amplify what little visible light that may exist
at night and to convert non-visible light into visible
light. (GPF ¶ 79)
16. Night vision goggles are devices which
permit users to perceive images under low light or
night conditions. Each night vision goggle includes
at least one image intensifier tube that receives,
amplifies, and displays an image under low light or
night conditions.
When using a night vision
goggle, the low light and infrared radiation
entering that goggle first encounters a transparent
objective lens that focuses the radiation onto an

12a
input window of an image intensifier tube. (GPF
¶¶ 80-82)
17. Image intensifier tubes are one of the
primary light amplification mechanisms used in
night vision technologies. The current generations
of image intensifier tubes are capable of amplifying
visible light and infrared under low light
conditions. The current generation of tubes also
convert the amplified infrared into visible light for
the user. An image intensifier tube is frequently
referred to as an "12 tube." The components of an
image intensifier include a photocathode, a
microchannel plate, a phosphor screen, a fiber
optic twist, and an eyepiece. (GPF ¶¶ 83-84) The
focused radiation, consisting of photons, impacts
on a photocathode of the image intensifier tube
that transforms photons to electrons (GPF ¶ 85).
Each electron then passes through a microchannel
plate that generates tens of thousands of
additional electrons. This process is also referred
to as intensification. (GPF ¶ 86) The electrons
then strike a phosphor screen that converts
electrons to photons (GPF ¶ 87).
18. A
"green-color
phosphor"
stimulates
responsive cells, primarily medium wavelength
cones, in the retina which eventually would lead to
a percept of "green color." A "red-color phosphor"

13a
stimulates responsive cells in the retina, primarily
long wavelength cones, which eventually would
lead to a percept of "red color." A "white-color
phosphor'' stimulates responsive cells in the retina
which eventually would lead to a percept of "white
color." (GPF ¶¶ 89-91)
19. A tint of one color is generally referred to as
monochromatic. In turn, the photons constitute an
amplified or intensified image of a previously low
light or infrared image. (GPF ¶ 92-93)
20. In conventional image intensifier tubes, the
selected phosphor is of the P-43 type or an
equivalent, which creates a green percept to users
(GPF ¶ 94).
21. In general, multicolored phosphors have
been used in color television tubes since the 1960s.
A full color cathode ray tube (CRT) television
typically has three phosphors that correspond to
the primary colors of the display-red, green and
blue (referred to as RGB). (GPF ¶ 95)
22. By 2002, it was general knowledge that a
phosphor screen for an image intensifier tube may
employ phosphors of different colors, including redcolor phosphors. For example, the German
company Proxitronic in 1997 offered to sell image

14a
intensifier tubes that employed phosphor screens
of different colors. (GPF ¶ 96)
23. U.S. Patent No. 5,233,183 (1993 Field
Patent), reflecting an invention by Mr. Robert J.
Field, Jr., of ITT Corporation (ITT), disclosed the
use of different colored phosphors in a single image
intensifier tube. On 3 August 1993, the date that
the 1993 Field Patent issued, the use of different
colored phosphors in an image intensifier tube was
publicly available information. (GPF ¶ 97)
24. U.S. Patent No. 3,987,299 (Mulder Patent),
reflecting an invention by Mr. Hendrik Mulder of a
Dutch corporation, also disclosed the use of two
different colored phosphors in an image intensifier
tube. On 19 October 1976, the date that the Mulder
Patent issued, the use of two different colored
phosphors in a single image intensifier tube was
publicly available information. (GPF ¶ 98)
25. By 1988, Litton Industries was already
manufacturing image intensifier tubes having red
color phosphor screens (GPF ¶ 99). By 2002, ITT
was willing to manufacture image intensifier tubes
having phosphor screens of different colors beside
the green color. It was capable of manufacturing
image intensifier tubes with red color phosphor
screens. (GPF ¶ 100)

15a
26. By 2002, there were only two manufacturers
of image intensifier tubes in the United States-ITT
and Litton (GPF ¶ 101).
27. By 2002, image intensifier tubes having
white color phosphor screens were also available.
In its 1998 proposal for the ACT II contract (the
Act II contract is discussed in finding 61), CANVS
asked the Army to provide white-color phosphor
image intensifier tubes manufactured by Litton
Industries as government-furnished equipment
(GFE) items.
Litton did provide white-color
phosphor image intensifier tubes for incorporation
into the color night vision camera systems
delivered under the ACT II contract. (GPF ¶ 102)
28. When a human eye views an image
projected from an I2 tube's phosphor screen, such
viewing is often referred to as "direct viewing."
Direct view devices are distinguished from indirect
view devices which use a video screen. (GPF ¶ 103)
A night vision device permitting use by two eyes is
referred to as a binocular device. A binocular night
vision device employs two image intensifier tubes
such that each tube presents an image to one eye.
This presentation to two separate eyes creates
some perception of depth or stereopsis. By 2002,
there were several monochromatic binocular night
vision goggles such as the AN/AVS-6 or ANVIS

16a
(Aviator's Night Vision Imaging System), the
AN/AVS-9, the AN/PVS-5, the F4949, and the
F5050 goggles. (GPF ¶¶ 108-10)
29. The term "multi-spectral" relative to
imaging technology means the formation of a scene
taken
from
different
segments
of
the
electromagnetic energy spectrum, for example,
visible and infrared. Multiple segments or bands of
different wavelengths may be used-for example, for
three, or up to ten segments. These multiple bands
of different wavelengths may be created by a
combination of image intensifier tubes and filterse.g., red-color phosphor tube in combination with
green-color phosphor tube, or white-color tubes
with red and green filters. (GPF ¶¶ 111-12)
30. Night Vision and Electronic Sensors
Directorate (NVESD), Ft. Belvoir, Virginia, is a
subordinate organization of the U.S. Army
Research,
Development
and
Engineering
Command (RDECOM). NVESD is also sometimes
referred to by its earlier name-the Night Vision
Laboratory (NVL). (GPF ¶ 113) NVESD for the
past 50 years has been the primary federal
government agency identifying and developing
promising night vision technology to the point of
production for implementation into actual
equipment (GPF ¶ 114).

17a
31. Until his retirement in early 2015, Mr.
Edward Bender had been an engineer with
NVESD since 1974. Mr. Bender had extensive
experience with the technical aspects of night
vision devices, especially night vision devices using
image intensifier tubes.
He authored or coauthored about 25 publications. For the 15 years
prior to his retirement, Mr. Bender held the
position of Subject Matter Expert for image
intensifier tubes. (GPF ¶¶ 115-16)
32. In 1987, inspired by the Land Theory, Mr.
Bender designed a binocular night vision goggle
having a green-phosphor image intensifier tube in
one channel and a red-phosphor image intensifier
tube in the other channel, along with external
objective lens filters that permitted the
transmission of appropriate ranges of wavelengths.
This night vision goggle was called the Chromatic
PVS-5. (GPF ¶ 117)
33. Mr. Bender's 1987 design was prompted by
the Army's requirement for night vision goggles
that would be capable of distinguishing colors at
night so as to permit nighttime repair and
maintenance of aircraft, including distinguishing
color-coded electrical wires (GPF ¶ 118).

18a
34. The design of the Chromatic PVS-5 goggle is
nearly identical to appellant's CNVS-4949 goggle
(GPF ¶119). Below is a sketch of the functional
design of the Chromatic PVS-5:
FUNCTIONAL DESIGN

(Id.; ex. G-9 at 2100)
35. In creating the Chromatic PVS-5 goggle, Mr.
Bender realized that Dr. Land's work did not
involve the presentation of one waveband band to
one eye and another waveband to another eye, and
Mr. Bender identified this design as an
engineering risk (GPF ¶ 120). The design of the
Chromatic PVS-5 night vision goggle varied from
the standard production model by substituting one
of the identical green phosphor tubes with a red
phosphor tube (tr. 6/199). It provided a greencolored scene in one optical channel and a redcolored scene in the other channel (GPF ¶ 121).
Mr. Bender used appropriate external objective

19a
lens filters with this goggle (GPF ¶ 122; exs. G-10,
-180.2, -180.3).
36. Mr. Bender, his colleague Mr. Daniel Hosek,
and other colleagues at NVESD operated the
Chromatic PVS-5 goggle during the 1988 time
period. None were able to obtain any consistent,
reproducible true-color views. (GPF ¶¶ 126-29; tr.
6/206-09, 211)
37. NVESD generated a purchase order, dated 2
February 1987, for the purchase of a standard
AN/PVS-5A binocular night vison goggle having
one image intensifier tube capable of operating in
the wavelength range of 610-650 run. This
wavelength range is best accomplished by a redcolor phosphor screen image intensifier tube.
NVESD forwarded this purchase order to the
corporations
which
were
at
that
time
manufacturing not only image intensifier tubes but
also entire PVS-5 goggles-ITT, Litton Systems, and
Varo. The purchase orders contained no
restrictions on the manufacturers' ability to use
the information therein. (GPF ¶¶ 130-31; ex. G-9
at G2094-95; tr. 6/199-201, 214)
38. NVESD issued Contract No. DAAK70-87-P1009, dated 19 May 1987, to Litton for the
purchase of a modified AN/PVS-5 goggle having a

20a
standard green-color phosphor image intensifier
tube and a red-color phosphor image intensifier
tube (GPF ¶ 132). Via this purchase order, Mr.
Bender's design was made known to the night
vision technology industry. Mr. Bender discussed
his design in some detail with Litton
representatives. (GPF ¶ 133) Litton was not
required to sign any nondisclosure agreement
(NDA) to protect Mr. Bender's design (GPF ¶ 134).
39. NVESD received the Chromatic PVS-5
goggle in mid-December 1987. This goggle was
released into Mr. Bender's custody in January 1988.
(GPF ¶ 136) Mr. Bender did not consider his design
to be a trade secret (GPF ¶ 135). NVESD did not
treat the Chromatic PVS-5 night vision goggle as a
trade secret. Mr. Bender discussed the Chromatic
PVS-5 goggle with Litton representatives, even
after delivery. Mr. Bender distributed his design
schematics to other government personnel. (GPF ¶
137; tr. 6/212, 240-41)
40. The Chromatic PVS-5 night vision goggle
was displayed in a glass exhibit display case
located in the hallway of the NVESD building,
accessible to both government and private sector
personnel, for several years (GPF ¶ 139). CANVS'
expert witness, Mr. Brian Gillespie, recalls
observing the Chromatic PVS-5 goggle in the glass

21a
display case prior to 2000, and he recalls ,it "using
these two different color phosphor tubes in the
systems, and filtering the imagery that came-I
mean light that came into the tubes" (GPF ¶ 140).
Mr. Bender's design of the Chromatic PVS-5 night
vision goggle was generally known in the night
vision technology industry (GPF ¶ 141).
41. U.S. Patent No. 5, 162,647 (1992 Field
Patent), invented by Mr. Robert J. Field, Jr., of
ITT Corporation, disclosed the simultaneous
presentation of a reddish image and a greenish
image by a binocular night vision goggle, utilizing
color input and output filters (ex. G-169; tr. 9/9499). On 10 November 1992, the date that the 1992
Field Patent issued, the simultaneous presentation
of a reddish image in one optical channel and a
greenish image in the other optical channel of a
binocular night vision goggle was publicly
available information (GPF ¶ 142).
42. In 1998, Mr. John Walkenstein, appellant's
president, filed two patent applications, U.S. Patent
Application Serial Nos. 09/062,141 and 09/206,992,
directed towards a night vision goggle with one
channel that appears green and one channel that
appears red (GPF ¶ 143). Both patent applications
were rejected by the U.S. Patent and Trademark
Office examiner for lack of patentability in light of

22a
previous inventions by others.
For both
applications, the primary references cited for these
rejections was the 1992 Field Patent.
Other
references cited as part of the rejection included the
1993 Field Patent (ex. G-170), the 1976 Mulder
Patent (ex. G-168), and the 1993 Chiu Patent (ex.
G-171). All the claims in both applications were
rejected based on either 35 U.S.C. § 102 for lack of
novelty, or 35 U.S.C. § 103 for obviousness in light
of prior patents (ex. G-165 at 144-54, 236-51, ex. G166 at 98-114). Mr. Walkenstein failed to overcome
these rejections, and later, he abandoned both
patent applications (GPF ¶ 144).
43. In October 1994, Dr. William McLean of the
U.S. Army Aeromedical Research Laboratory
(USAARL), Ft. Rucker, Alabama, presented his
work regarding merging or fusing images viewed
through different spectral bands at a technical
conference (GPF ¶ 146). The mission of USAARL is
to support operational research, and develop and
evaluate equipment used on aircraft. One area of
focus is directed to biomedical issues that might
have an impact on aviators, including night vision.
(GPF ¶ 147) Dr. McLean is a research optometrist
who has extensive experience in analyzing,
evaluating, and testing night vision devices,
including night vision goggles (exs. G-182, -183; tr.

23a
1/130, 7/8-10, 128). He authored or co-authored
over 50 publications and received three U.S.
patents (GPF ¶ 148).
44. One benefit of multi-spectral imaging is that
different objects are perceived under different
ranges of wavelengths. Specifically, multi-spectral
imaging provides better contrast between objects
such that different details might be discerned.
(GPF ¶ 152) According to Dr. McLean, multispectral images generated by night vision goggles
where optical channels have different spectral
ranges are not true color or life-like color images
(GPF ¶ 153).
45. The October 1994 conference was an open
conference and Dr. McLean's presentation was an
unclassified presentation without any distribution
restrictions (tr. 7/20). Thus, information presented
by Dr. McLean as to his work on multi-spectral
imaging of image intensified scenes became
knowledge that was publicly available as of 1994
(GPF ¶ 154). Representatives of all the key
participants and developers in the night vision
technology industry were present at the 1994
conference. For example, Dr. Allen Waxman, the
government's principal expert, attended the 1994
conference. Thus, the information presented by
Dr. McLean as to his work on multi-spectral

24a
imaging of image intensified scenes became
general knowledge in the night vision industry.
(GPF ¶ 155) Participants at the 1994 conference
did not sign any nondisclosure agreements (GPF ¶
156).
46. In his September 1996 technical report, Dr.
McLean described the use of a binocular night
vision goggle where one image intensifier tube
employed a yellowish, green-color phosphor screen
and the other tube employed a deeper green-color
phosphor screen. The spectral content of the
image provided by one image intensifier tube is
different from the spectral content of the other
image. (GPF ¶ 157) Dr. McLean's September 1996
technical report was released to the general public
(GPF ¶ 158).
47. Dr. McLean continued to develop, analyze,
and test multi-spectral night vision goggles. He
generated multi-spectral scenes by placing
different spectral filters over the image intensifier
tubes. In April 1999, he placed a filter that
blocked red-color wavelengths over one optical
channel of a monochromatic binocular night vision
goggle, the AN/PVS-5, and a separate filter that
blocked near-infrared wavelengths over the other
optical channel, creating multi-spectral scenes.

25a
The multi-spectral scenes provided better color
contrast. (GPF ¶ 159)
48. Dr. McLean also suggested the use of image
intensifier tubes having different colored phosphor
screens to generate multi-spectral scenes. For
example, a binocular would have a green-color
phosphor screen image intensifier tube and an
orange-color phosphor screen image intensifier
tube. (GPF ¶ 160)
49. By 1999, Dr. McLean did not consider the
use of external filters with binocular night vision
goggles to be a trade secret (tr. 7/39-40). By 1999,
he did not consider providing different color
images to different eyes by night vision goggles
equipped with different spectral filters to be a
trade secret (GPF ¶ 162).
50. An April 1997 Armada International article,
described a Delft Sensor Systems' camera system
where two image intensifier tubes were used to
observe the same scene (ex. G-159 at 4). Because
the same scene was observed in two different
wavelength bands, the spectral response of one
tube is different from the spectral band of the
other tube such that the difference between the
two responses was used to generate color images
by means of spectral filtering (GPF ¶ 163). By

26a
2003, the Delft Sensor System was described and
shown in greater detail at technical conferences
and in publications (GPF ¶ 164).
51. Along with CANVS' multi-spectral imaging
project there were three other SBIR Phase I
awardees-Equinox, I Technology Applications, and
LSA (R4, tab 28 at 227-282).
During the
competition for a Phase II award in 2002, Equinox
submitted a Phase II Proposal entitled Multispectral Intensified Night Vision (GPF ¶ 165). In
this proposal, Equinox discussed [R E D A C T E D
R E D A C T E] multi-spectral night vision system
where the image from [R E D A C T E D R E D A C
TEDREDACTEDREDACTEDREDA
C T E D R E D A C T E D] (ex. G-4 at 916; tr. 9/99).
Specifically, the proposal explained that [R E D A
CTEDREDACTEDREDACTEDRED
ACTEDREDACTEDREDACTEDRE
DACTEDREDACTEDREDACTEDR
EDACTEDREDACTEDREDACTED
REDACTEDREDACTEDREDACTE
D] (GPF ¶ 166). The [REDACTED] design
discussed in the Equinox Proposal also suggested
using [R E D A C T E D R E D A C T E D R E D A
C T E D R E D A C T E D R E D] (GPF if 167). The
Citations to the government's Rule 4 files are to
consecutively-numbered pages unless indicated otherwise.
2

27a
[REDACTED] design discussed in the Equinox
Proposal differed from the CANVS design in that it
would [R E D A C T E D R E D A C T E D R E D A
C T E D], creating monocular color (GPF ¶ 168).
While the Equinox SBIR Phase II Proposal was not
a public document, the [REDACTED] design
discussed in that Proposal illustrates what was
generally known in the industry prior to CANVS'
SBIR Phase II contract in 2002. After reviewing
the Equinox Proposal, CANVS' expert witness, Mr.
Gillespie, admitted that as of 2001 "others in the
industry knew of this approach." (GPF ¶ 169)
52. By 2002, it was general knowledge that a
binocular night vision goggle may employ viewing
components capable of providing different spectral
responses,
i.e.,
different
wavelengths
or
frequencies. By 2002, it was general knowledge
that a binocular night vision goggle may be
capable of presenting multi-spectral, nonmonochromatic images. By 2002, it was general
knowledge that the images generated by multispectral, non-monochromatic images provide high
contrasts.
Relative to certain objects, multispectral imaging creates better contrast between
objects. By 2002, it was general knowledge that
there are several different types of filters that are
capable of transmitting or blocking certain

28a
wavelengths, for example, glass filters or dielectric
filters. By 2002, it was general knowledge that the
vernacular term "red filter" means a filter that
passes a range of wavelengths that would be
perceived by an observer to be red. By 2002, it was
general knowledge that the vernacular term "green
filter" means a filter that passes a range of
wavelengths that would be perceived by an
observer to be green. By 2002, it was general
knowledge that the perceived coloration of the
reflected light from a filter may be dependent on
the direction of the light source and the viewing
angle. By 2002, it was general knowledge that a
reddish image may be created by using an image
intensifier tube having either green, white or redcolor phosphor in conjunction with appropriate
external filters.
By 2002, it was general
knowledge that a greenish image may be created
by using an image intensifier tube having either
green, white or red-color phosphor in conjunction
with appropriate external filters. By 2002, it was
generally known as to how to create
simultaneously a reddish image in one channel of a
night vision goggle and a greenish image in the
other channel by using appropriate phosphors for
the image intensifier tubes and appropriate filters.
(GPF ¶ 170-79)

29a
C. CANVS' Corporate Practices Regarding
Nondisclosure Agreements
53. Mr. Walkenstein is and has been the
president of CANVS Corporation since its
establishment in 1998 (GPF ¶ 181). He has a
background in applied physics. He also has
experience in several different experimental fields.
He gained this experience during his tenure with
the Nonlinear Dynamics Laboratory (NDL) of the
University of Miami, Coral Gables, Florida,
spanning between 1983 and 2009. (GPF ¶ 182)
Mr. Walkenstein does not hold a bachelors or a
graduate degree (GPF ¶ 183).
54. Mr. Walkenstein was knowledgeable as to
the design and operation of conventional night
vision goggles and image intensifier tubes since
the mid- l990s. By the early 2000s, he was aware
that image intensifier tubes employed either green
or white-color phosphors. Mr. Walkenstein served
in the U.S. Army as a warrant officer between
1994 and 1996, during which he was assigned for a
period in 1996 to USAARL. (GPF ¶¶ 185-87)
55. When assigned to assist Dr. McLean at
USAARL in 1996, Mr. Walkenstein completed a
project where he transformed black-and-white
photographs of night vision scenes into color

30a
scenes. For this work, Dr. McLean issued a letter
of recommendation in which he stated that the
assigned task merged:
[V]ideo images to simulate characteristics of
a theoretical color night vision goggle
(NVG). WOl [Warrant Officer] Walkenstein
was shown black and white video tapes of
scenes imaged through colored and near
infrared filters that replicated spectral
responses of candidate photocathodes of
night imaging devices. Using a computer
and auxiliary hardware, he digitized the
images adding false colors and combined the
images into all possible combinations.
(GPF ¶¶ 188-89)
56. As early as the mid-1990s, Mr. Walkenstein
was knowledgeable as to computer video recording
equipment. To carry out the project assigned by
Dr. McLean in 1996, Mr. Walkenstein used a
generally
well-known
computer
software
technique. After leaving the Army in 1996, Mr.
Walkenstein embarked on developing night vision
devices. (GPF ¶¶ 190-92)
57. Mr. Walkenstein understood that one
mechanism for protecting confidential information
is by using nondisclosure agreements. It was

31a
standard business practice for CANVS to use
nondisclosure
agreements
when
disclosing
confidential information. Mr. Walkenstein held the
view that nondisclosure agreements would be
needed if CANVS were to disclose proprietary
information to commercial entities. He understood
that a nondisclosure agreement would permit
parties to discuss proprietary information without
fear of that information being retransmitted to
others. (GPF ¶¶ 212-14)
58. Mr. Walkenstein held the view that a
nondisclosure agreement would even preclude a
recipient from disclosing public information if that
recipient had received it under that nondisclosure
agreement (GPF ¶ 215).
59. Mr. Walkenstein held the view that
nondisclosure agreements are not needed to
protect proprietary information when it is
disclosed to federal, state or local government
officials (GPF ¶¶ 223-24). Mr. Walkenstein held
the view that nondisclosure agreements are not
needed when disclosing proprietary information to
government officials if that meeting took place in a
classified setting because additional safeguards
would have been in place. He stated that laws and
regulations for protecting national security

32a
information added another layer of protection for a
contractor's proprietary information. (GPF ¶ 226)
D. CANVS' Early Night Vision Technology
60. In 1998, CANVS submitted a proposal,
entitled "Dismounted Color Night Vision Systems,"
to the U.S. Army regarding color night vision
equipment. In its proposal, CANVS stated that
actual component's specifications were not yet
finalized and components not yet purchased. It
proposed to purchase critical hardware such as
tubes, objective lenses, eyepieces, filters, etc. (Ex.
G-19 at 857) CANVS specifically asked the
government to provide white-color phosphor image
intensifier tubes as GFE items (GPF ¶¶ 242-43).
61. In response to CANVS' proposal, the U.S.
Army
Communications-Electronics
Command
(CECOM), Ft. Monmouth, New Jersey, awarded
Contract No. DAAB07-99-C-K752 to CANVS in
December 1998. The contract is referred to by the
parties and herein as the K752 or "ACT II
contract." (GPF ¶¶ 245-46)
62. The contracting officer's representative
(COR) for the ACT II contract was Mr. Hosek, an
employee of NVESD. Mr. Hosek is an engineer and
has been an employee of NVESD since 1979. He
has had extensive experience with the technical

33a
aspects of night vision devices, especially night
vision devices using image intensifier tubes. (GPF
¶¶ 247-48)
63. CANVS was paid $299,250 for its ACT II
work. A substantial portion, $222,250, was paid
specifically for the technical data and rights
thereto, while $77,000 was paid for the delivery of
the prototype systems. (Ex. G-20 at 625-30)
64. The ACT II contract required CANVS to
"develop" and deliver three night vision camera
systems (ex. G-20 at 626; tr. 1180-81). Direct view
night vision technologies, such as a colorized
binocular device, were not within the scope of the
ACT II contract (id ; GPF ¶ 250).
65. As required by the ACT II contract, CANVS
delivered a monocular rotating optics camera
device. CANVS also delivered a two-tube night
vision camera system and a four-tube night vision
camera system. (GPF ¶¶ 251-52)
66. Because the ACT II contract was not an
SBIR contract, it contained the government's
standard technical data rights clause, DFARS
clause 252.227-7013, RIGHTS IN TECHNICAL
DATA -NONCOMMERCIAL ITEMS (Nov 1995)
(the 7013 clause) (ex. G-20 at 646; tr. 2/107-08).
The K752 contract also included a special clause

34a
H-9 that required the delivery of all technical data
with unlimited rights pursuant to the 7013 clause
except for three specific categories of technical
data (ex. G-20 at 644; tr. 2/108-09). Specifically,
CANVS was only permitted to deliver technical
data bearing limited rights markings which were
already present in (1) Mr. Walkenstein's patent
application; (2) the technical proposal resulting in
this contract; or (3) "technical data pertaining to
items, components or processes developed in
connection with the production of colorized night
vision devices" (id.; GPF ¶ 254).
67. As required by the ACT II contract (ex. G-20
at 626-27, 630), CANVS delivered to the Army at
least 11 monthly reports and a final report (tr.
2/110, 4/83; GPF ¶ 256). The final report, dated
February 2000, was marked with the limited
rights legend (ex. G-21; tr. 2/111; GPF ¶ 257). The
limited rights legend marked on the final report
for the ACT II contract was in substantial
conformity with the marking requirements of the
7013 clause, including the additional identifiers
such as contract number, contractor name, and
contractor's address (ex. G-21 at 658; GPF ¶ 258).
In addition, CANVS delivered an operator's
manual for each of the two night vision camera

35a
systems (ex. G-20 at 629, exs. G-22, -23; tr. 1/8081, 2/112; GPF ¶ 260).
68. Prior to the SBIR Phase I contract, CANVS
had created a goggle, generally referred to as the
"pirate goggle," where colored filters were
positioned in front of and behind green-color
phosphor image intensifier tubes. One of the
objective filters was red in color and the other filter
was green in color. Similarly, one of the back-end
filters was red in color and the other filter was
green in color. (Ex. G-17 at 7; tr. 2/121-23; GPF ¶
265)
69. During the trial, a physical exhibit which
was the "functional equivalent" of the pirate goggle
was received into evidence as exhibit A-93 (GPF ¶¶
265-66). Exhibit A-93 is constructed from two
AN/PVS-14 monocular devices connected together
each having one green-color phosphor image
intensifier tube. Exhibit A-93 does not contain a
red-color phosphor image intensifier tube. (Ex. A93; tr. 1/92-95; GPF ¶ 267) Exhibit A-93 includes a
red-color filter placed over one of the eyepiece
positions to make the view red in color (tr. 1/97-98,
2/130). According to Mr. Walkenstein, the CNVS4949 "is actually identical [to Exhibit A-93], except
that [A-93] got a red phosphorous [tube]. So now
you don't need the filter on the back, and you have

36a
significantly higher brightness on your red output
side." (Tr. 2/132; GPF ¶ 268)
70. The U.S. Anny Aviation Applied Technology
Directorate (AATD) had provided Mr. Walkenstein
with a binocular goggle having two green-color
phosphor image intensifier tubes, and he modified
that goggle into the pirate goggle. The underlying
goggle already included a manual gain control
mechanism in both channels. (Tr. 21123-24; GPF
¶ 270) Mr. Walkenstein stated that he modified
the existing Anny-provided goggle by providing
filters at both the objective lens end of that goggle
and the eyepiece end (tr. 2/123; GPF ¶ 271). The
pirate goggle was not within the scope of work of
the ACT II contract, and accordingly was not
covered by the technical data provisions of that
contract (ex. G-20 at 626; tr. 1/80-81; GPF ¶ 273).
Although the exact date of creation of the pirate
goggle is unknown, it would have been prior to the
SBIR Phase I, as a photograph of the pirate goggle
appeared in briefing slides that were presented
prior to the SBIR Phase I-i.e., mid-2002 (ex. G-17
at 7; tr. 2/120-12; GPF ¶ 274).
71. Mr. Walkenstein presented briefing slides of
exhibit G-17, entitled "White Paper Proposal for
Direct View Color Night Vision Goggle," to
government personnel prior to the SBIR Phase I

37a
contract (tr. 2/121-22).
These briefing slides
contained details regarding the pirate goggle and
included a photograph of Mr. Walkenstein
displaying the pirate goggle with a red optical
channel and a green optical channel (ex. G-17). Mr.
Walkenstein discussed, among other things, the
use of a short-pass channel having P-43 greencolor phosphor screen and a long-pass channel
"utilizing a 'Red' phosphor tube" (id. at 7). The
briefing slides also mentioned that the long-pass
filter would block light below 600 nm and transmit
light above 600 nm while the short-pass filter
would block light above 600 nm and transmit light
below 600 nm (id. at 2). These briefing slides also
discussed the use of manual gain control (id. at 7;
GPF ¶ 275).
72. CANVS also briefed USAARL on its
colorized night vision technology on 6 April 1999
(ex. G-13; tr. 7/30-34). This briefing included a
demonstration of the pirate goggle concept (ex. G13). Specifically, Dr. McLean's memorandum for
record explains:
Another approach demonstrated was using
two different band pass filters in front of the
right and left tubes of an NVG. One filter
transmitted above 650 nanometers and the
other below approximately 650 nanometers.

38a
Different colored filters (red and blue) were
attached to the NVG eyepieces. However,
both previous vision research and this
demonstrator showed that there is very
little color mixing between the right and left
eyes.
Rather the image when viewed
binocularly appears to be a colored form of
luster and alternating suppression between
the two images.
(Id.; GPF ¶ 279)
73. Following the briefing, CANVS loaned Dr.
McLean the front-end and back-end filters, and Dr.
McLean added them to a PVS-5 night vision goggle
and took that filtered goggle on an operational
flight test during the evening of 21 April 1999 (ex.
G-14; tr. 7/35-41; GPF ¶ 280). Dr. McLean the
next morning wrote the following email to Mr.
Walkenstein which stated in part:
Went flying last night with 40% moon
illum. Took the AN/PVS-5s with the red
and near IR blocking filters on the objective
lenses and the orange and "green" (changed
from the original double blue) filters on the
eyepieces. The NVG output was way too
dark for pilotage. However, I saw good color
contrast and some other interesting things. I

39a
sat on the right side and for trees near the
aircraft, the leaves were orange but the
limbs appeared light blue. On a higher moon
illumination I'm going to switch the
objective lens filters which will make the
leaves greenish. That also means that blood
will appear green like a grass hopper, but it
may be distinguishable from other fluids
which is the main benefit of using color.
What if we mixed a standard PVS-14 with
manual gain and green phosphor with a ????
with orange phosphor for the other eye? I
would have the low light performance and a
quazi [sic] color or color separation when the
light levels are higher.
(Ex. G-14)
74. The concept of using a different color
phosphor screen in one optical channel in lieu of
back-end
filters
appears
to
have
been
communicated by Dr. McLean, as a suggestion to
Mr. Walkenstein in this email.
Notably, the
concept of using a different color phosphor screen
for each channel was absent from Mr.
Walkenstein's 1998 patent applications. (Exs. G165, -166) As detailed in those applications, Mr.
Walkenstein's "preferred embodiment" for the
invention requires, that "at least one back end filter

40a
is placed between at least one image intensification
structure and at least one eye such that the photons
emerging from that image intensification structure
appear to be of a corresponding spectral range to
the eye of the user"(ex. G-166 at 13-14). In other
words, the patent applications only disclosed the
use of back-end filters (id.; GPF ¶ 281).
75. Dr. McLean was an expert in the field and
fully appreciated the technical details of the pirate
goggles (ex. G-182; tr. 7/8-10; GPF ¶¶ 145-62). Dr.
McLean did not consider the use of different filters
over a binocular night vision device to constitute a
trade secret in 1999 (tr. 7/39-40).
76. Mr. Walkenstein filed patent applications
relating to color night vision devices (ex. G-165; tr.
2/92-93, 97). As pertinent here, the invention
discussed in the patent applications was directed
to a night vision device capable of displaying colors
at night (tr. 2/94-95). The patent application
marked as ex. G-165 is one of the patent
applications directed to such night vision devices
(tr. 2/97). That patent application is U.S. Patent
Application Serial No. 09/062,141, filed 17 April
1998 (ex. G-165 at l; tr. 2/98). Another one of the
three patent applications is marked as ex. G-166.
The patent application marked as ex. G-166 is U.S.
Patent Application Serial No. 09/206,992, filed 7

41a
December 1998 (ex. G-166 at 1). None of the three
patent applications resulted in patents (tr. 2/9798). The patent applications marked as exs. G-165
and G-166 were rejected by the U.S. Patent and
Trademark Office for lack of patentability in light
of previous inventions by others (ex. G-165 at 23651, ex. G-166 at 98-114; tr. 9/172-73). Mr.
Walkenstein subsequently abandoned all three
patent applications (tr. 2/100-01). The patent
application marked as ex. G-165 was abandoned.
in March 2001 (ex. G-165 at 263-64, 273), and the
patent application marked as ex. G-166 was
abandoned in November 2001 (ex. G-166 at 115,
133; see also GPF ¶¶ 285-90).
E. Development of the CNVS-4949 and CNVS5050 goggles
77. In an effort to evaluate the technical
feasibility of providing soldiers with night vision
devices capable of producing color images,
USSOCOM promulgated a topic for its SBIR
program (tr. 6/128).
Specifically, USSOCOM
issued Topic No. SOCOM 02-001, entitled "MultiSpectral Low-Light Imaging," for fiscal year 2002
(R4, tab 18 at 124; ex. G-29 at 4121; tr. 6/129).
78. A key objective of this USSOCOM SBIR
topic was to

42a
Investigate the technical feasibility of
fielding reproducible, meaningful, real-time
color Image Intensification (12) devices.
This innovation would remove the existing
constraint of monochrome (green) imagery of
current night vision devices and provide
color imagery in its place. Producing color
imagery would allow multiple users from
different physical locations to identify
targets in the scene by color content.
(Ex. G-29 at 4121; tr. 6/130-31) Once a topic was
issued, USSOCOM would receive on average about
20 proposals per topic (tr. 8/165). After a selection
process, typically three or four SBIR Phase I
contracts would be awarded under that topic (id.).
Due to limited USSOCOM SBIR program funding,
usually only one Phase I contractor would advance
into Phase II (tr. 8/165-66). Phase II contracts are
also funded by dedicated SBIR funding (tr. 6/43,
133-35).
79. Responding to USSOCOM's SBIR Topic No.
SOCOM 02-001, CANVS submitted its proposal in
December 2001 (R4, tab 20; ex. G-27; tr. 1/84,
2/175). CANVS proposed four different system
configurations for color night vision devices (R4, tab
20; ex. G-27 at 1608). One of the systems proposed
was the "Retrofit Goggle" (R4, tab 20 at 143-44).

43a
80. USSOCOM awarded CANVS an SBIR Phase
I contract on 3 July 2002, Contract No. USZA22-02P-0609 (hereinafter the 0609 contract or SBIR
Phase I contract or Phase I contract) (R4, tab 19; tr.
1/82-83). The 0609 contract required CANVS "to
conduct research, development and design of a
Multi-Spectral Low Light Imaging System" (R4, tab
19 at 129). The 0609 contract included the 7018
clause (id. at 136). The period of performance of the
SBIR Phase I contract was three months from the
date of contract award. The ending date for the
0609 contract was 3 October 2002. (Id. at 132)
81. As required by the SBIR Phase I contract,
CANVS delivered two monthly reports and a final
report. Monthly report No. 1 for the SBIR Phase I
contract included a discussion of the capabilities of
CANVS' proposed color night vision goggle, as well
as a photograph showing a red-color optical
channel and a green-color optical channel in a
binocular night vision goggle. The report also
discussed "a Long-pass filter (This filter blocks
light below 600nm and transmits light above
600nm) and a Short-pass filter (This filter blocks
light above 600nm and transmit[s] light below
600nm)." (GPF ¶¶ 313-14)
82. The final report for the SBIR Phase I
contract included a sketch of the CNVS-4949

44a
goggle from Drawing 275076 that Mr. Walkenstein
had received from ITT in September 2002 (GPF ¶
315). The sketch of the CNVS-4949 in the SBIR
Phase I final report included a caption "Note
independent manual gain controls for each
channel" (GPF ¶ 316).
83. The three reports delivered under the SBIR
Phase I contract were all marked with the legend
"This is a CANVS Corporation Confidential
Document. It is not to be retransmitted without
expressed written consent of CANVS Corporation."
(GPF ¶ 319)
84. No hardware was required to be delivered
under the 0609 contract. It only required the
delivery of the three reports. (GPF ¶¶ 321-22)
CANVS was paid $100,000 for its SBIR Phase I
work (GPF ¶ 323).
85. CANVS submitted a proposal for a SBIR
Phase II contract in early October 2002 in which it
stated that "CANVS proposes the delivery of the
following instrumentation:
Three ContrastEnhanced (Retrofit) goggles" (GPF ¶ 343).
USSOCOM awarded CANVS an SBIR Phase II
contract on 20 February 2003-Contract No.
USZA22-03-C-0027 (the 0027 contract or SBIR
Phase II contract) (GPF ¶ 347).

45a
86. Contract line item number (CLIN) 0001 of
the SBIR Phase II contract stated that "[t]he
contractor shall provide all facilities, labor, and
travel
to
conduct
the
research,
design,
development, testing and delivery of technical data
and prototypes of Multi - Spectral Low - Light
Imaging Systems as described in the contractor's
proposal received 10 October 2002 which is
incorporated herein by reference" (R4, tab 1 at 3).
The 0027 contract included the 7018 clause (id at
17). The COR for the SBIR Phase II contract was
initially
NVESD
employee
Mr.
Soyka.
Modification No. P00002 to that contract indicated
that Mr. Hosek subsequently replaced Mr. Soyka
as the COR. (GPF ¶ 351)
87. The SBIR Phase IIcontract required CANVS
to deliver progress and technical reports, two
CNVS-5050 and one CNVS-4949 contrast
enhanced (retrofit) goggles, and video systems (R4,
tab 1 at 12). The video systems are not pertinent to
this dispute.
88. As required by the SBIR Phase II contract,
CANVS delivered 15 monthly reports. In its
monthly report No. 1, CANVS attached a purchase
order to ITT that requested the manufacture of
three color night vision goggles. (GPF ¶¶ 356-57)

46a
89. In its monthly report No. 2, dated April
2003, CANVS stated that it had asked ITT to
construct a "CNVS-4949 (external to the SBIR
funding) and is testing the system so that when
the SOCOM goggles are delivered, CANVS
modifications will be refined to the extent possible
prior to delivery" (R4, tab 7; ex. G-39). The goggle
constructed by ITT for CANVS is referred to herein
as the ITT/CANVS-4949 goggle (R4, tab 7 at 62-63;
ex. G-39 at 425-26; tr. 2/208; GPF ¶ 335).
90. In its monthly report No. 4, dated June
2003, CANVS informed USSOCOM that it had
received the three goggles from ITT in June 2003
and planned to deliver to Mr. Hosek in early July
2003 (ex. G-40 at 442; tr. 2/207, 4/83; GPF ¶ 359).
In addition, report No. 4 included a photograph of
the three goggles taken from an oblique angle (ex.
G-40 at 442; tr.; 2/205; GPF ¶360).
91. In October 2003, CANVS submitted its
monthly report No. 8 for the SBIR Phase II
contract (R4, tabs 9, 15; tr. 4/105). In particular,
photographs depicting various images taken using
CANVS goggles were included (R4, tab 9 at 83, tab
15 at 115; tr. 4/105-06; GPF ¶¶ 391-92).
92. In monthly report No. 14, CANVS identified
a number of U.S. Government agencies that had

47a
either tested one of its color night visions goggles
or saw a demonstration of such goggles. As for the
federal agencies identified in report No. 14,
CANVS did not ask these agencies to execute
nondisclosure agreements before demonstrating its
equipment. (GPF ¶¶ 411-12)
93. Monthly reports delivered under the SBIR
Phase II contract affixed a marking on every page,
referred to by CANVS as its "Confidential Legend,"
that stated the following: "This is a CANVS
Corporation Confidential Document. It is not to be
retransmitted without expressed written consent
of CANVS Corporation." (R4, tabs 6-10, 15, 34)
94. At the inception of the SBIR Phase II
contract, CANVS had not yet constructed a
binocular night vision goggle employing a
conventional
green-color
phosphor
image
intensifier tube and a red-color phosphor image
intensifier tube (GPF ¶¶ 324-35, 408).
The
photographs of monthly report No. 8 were not in
existence before the advent of the SBIR Phase II
contract. They were generated during the period
of performance of the 0027 contract during the
summer of 2003. (GPF ¶ 409)
95. Sometime around April 2003, CANVS
demonstrated a fully-functioning CNVS-4949

48a
goggle manufactured by ITT to the Coral Gables
Police Department. CANVS did not ask the Coral
Gables Police Department to sign a written
nondisclosure agreement when demonstrating the
goggle. (GPF ¶¶ 336-37, 339)
96. Sometime around April 2003, CANVS also
demonstrated the CNVS-4949 goggle to the
Federal Bureau of Investigations (FBI). CANVS
did not ask the FBI to sign a nondisclosure
agreement. (GPF ¶¶ 340-42)
97. Performance of the SBIR Phase II contract
ended on 31 October 2004. . Final payment was
made in December 2004, and the contract
completion statement, DD Form 1594, was signed
on 28 February 2005. (GPF ¶¶ 367) CANVS was
paid $750,000 for its SBIR Phase IIwork (GPF ¶
368).
98. The CNVS-4949, as well as the similar
CNVS-5050, was a binocular night vision goggle
having two optical channels each of which included
an image intensifier tube. One of the image
intensifier tubes employed a conventional greencolor phosphor screen and the other tube employed
a red-color phosphor screen.
Filters for the
objective lens were delivered with each CNVS-4949
or CNVS-5050 goggle. (GPF ¶ 361)

49a
99. To conduct tests on the goggles to be
delivered under the SBIR Phase II contract,
CANVS executed a Cooperative Research and
Development Agreement (CRADA) with USAARL
in March 2003 (R4, tab 24; tr. 2/133-35; GPF ¶ 369).
100. CANVS' goggle identified as CNVS-4949
Serial No. 1 was forwarded to USAARL and tests
were conducted by Army personnel during the
summer
of
2003.
Such
tests
included
photographing scenes through the optical channels
of the goggle. (GPF ¶ 371) As part of the CRADA
project, about a dozen government employees used
the CNVS-4949 goggle (GPF ¶ 373).
101.
USAARL
issued
an
Abbreviated
Assessment of the CNVS-4949 (hereinafter the
CRADA Report) in September 2003. Dr. McLean
authored the CRADA Report. Mr. Hosek was a
designated government recipient of the CRADA
Report. (GPF ¶¶ 374-75)
102. During the CRADA testing, Dr. McLean
conducted three observation flights and one night
of ground observations with the CNVS-4949 goggle
(R4, tab 27 at 214). Regarding color rivalry, the
CRADA Report noted that:
The color difference between green and
red inputs to the separate eyes may be

50a
greater than most individuals can adapt to.
When we used the same color green into both
eyes but different input spectra with the
visible wavelengths passed to one image
intensifier channel and the near IR passed to
the other channel, the objects in the scene
with different amounts of contrast between
the right and left images were noticeable, but
not nearly as apparent as with the separate
red and green phosphors for each eye.
However, the red and green phosphors also
tended to set up a rivalry affect with color
shifts of objects within the field of view.
(Id. at 220) The Report also noted that the "opinion
of 4 out of 5 observers was [that] the visible channel
was too dark and the different colors would probably
give them a headache within a few minutes" (id. at
215). Dr. McLean and his colleagues experienced
headaches as a result of the color rivalry (ex. G-51;
tr. 7/60-61, 74-75, 126; GPF ¶ 453).
103. In January 2003, responding to Mr.
Hosek's inquiry, Mr. Walkenstein forwarded a
quote for supplying a CNVS-4949 goggle having a
red-color phosphor screen image intensifier tube
(ex. G-88). As indicated in monthly report No. 2
for the SBIR Phase II contract, the internallyfunded CNVS-4949 goggle was demonstrated to

51a
NVESD no later than late April 2003 (GPF ¶¶ 41617). Responding to NVESD's request to purchase
the CNVS-4949 goggle that CANVS had quoted in
January 2003, appellant forwarded its purchase
order to ITT for one CNVS-4949 goggle based on
Drawing 275076. Mr. Walkenstein informed Mr.
Hosek regarding the submission of CANVS'
purchase order to ITT. CANVS forwarded its
invoice to NVESD in October 2003.
NVESD
directly purchased the goggle outside of any SBIR
funding. The CNVS-4949 goggle purchased by
NVESD was delivered to Mr. Hosek in late 2003 or
early 2004. This goggle is hereinafter referred to as
the "NVESD CNVS-4949 goggle." (GPF ¶¶ 418-21)
104. The NVESD CNVS-4949 goggle is similar,
if not identical, to the CNVS-4949 goggle delivered
under the SBIR Phase II contract (tr. 4/24). The
photograph on page 2463 of ex. G-46 is a view of
the external filters of the NVESD CNVS-4949
goggle that are positioned over the objective lenses.
In this view, the goggle is standing on the eyepiece
side. The left external filter (from the perspective
of a user of that goggle) is reddish in tint and the
right external filter is greenish in tint. The
photograph of ex. G-46 on page 2452 is another
view of the external filters of the NVESD CNVS4949 goggle. The photograph of ex. G-46 on page

52a
2446 is a view of the NVESD CNVS-4949 goggle
with the external filters removed. (GPF ¶¶ 424-25)
105. The photograph of ex. G-46 on page 2458 is
a view of the NVESD CNVS-4949 goggle from the
eyepiece direction. The eyepieces are removed.
The external filters are also removed. In this view,
the left image intensifier tube is orange in tint and
the right image intensifier tube is greenish in tint.
The reddish left external filter is associated with
the orange-tint left tube and the greenish right
external filter is associated with the greenish right
tube. (GPF ¶ 426) When demonstrating or selling
the single CNVS-4949 goggle to NVESD, CANVS
did not ask Mr. Hosek to sign a nondisclosure
agreement (GPF ¶ 427).
F. Events Leading to the June 2005 Special
Operations Forces (SOF)IAdvance Planning
Briefmg to Industry CAPBI) Conference
106. By June 2003, government agencies had
purchased a total of nine CNVS-4949s and CNVS5050s-three under the SBIR Phase IIcontract, one
by NVESD, and five by OSI Technologies on
behalf of a government customer (tr. 2/226-27; ex.
G-91; GPF ¶ 709).
107. No later than February 2005, CANVS had
provided on its public website information

53a
regarding the CNVS-4949 goggle. The CANVS
website included a photograph of the CNVS-4949
goggle with the annotation "independent manual
gain control" pointing at a component in each
optical channel of the goggle. The CANVS website
also disclosed the per-unit cost of each CNVS-4949
goggle-$30,000. (GPF ¶¶ 706-08)
108. DoD sponsored a conference and exhibition
to demonstrate new technologies to staff members
of the United States Congress (2nd supp. R4, tab
64). This event was referred to as either the
"Congressional Staffer Day" or "demo" (GPF ¶ 717).
109. One of the new technologies demonstrated
at the Congressional Staffer Day was the CNVS4949 goggle. Mr. Thomas Piazza, a program
official in USSOCOM's SBIR office, coordinated
the
presentation
of
various
USSOCOM
technologies for the Congressional Staffer Day
exhibition. (GPF ¶ 719)
110. Attached to an email from Mr.
Walkenstein dated February 15, 2005 was a poster
describing the CNVS-4949 goggle (2nd supp. R4,
tab 62 at 290; tr. 4/226). Mr. Piazza forwarded this
poster to his colleague Mr. Shawn Martin (2nd
supp. R4, tab 63; tr. 4/227, 243).

54a
111. Mr. Hosek in February 2005 prepared a
poster (hereinafter the Hosek Poster) having six
photographs, including captions, and textual
descriptions of the CNVS-4949 goggle. The Hosek
Poster does not contain the CANVS Confidential
Legend or any other proprietary marking. (GPF
¶¶ 722-23) Mr. Hosek does not recall as to why the
Hosek Poster was prepared. It was likely that a
USSOCOM official had asked Mr. Hosek to make a
poster. He does not recall whether the Hosek
Poster was prepared for use at the Congressional
Staffer Day event. He also does not recall whether
the Hosek Poster was prepared for display inside
the government or outside of the government. Mr.
Hosek does not recall when he prepared the Hosek
Poster. He does not recall whether that poster was
prepared in February 2005, or at an even earlier
date. (GPF ¶¶ 724-25)
112. As for the top center, top right, lower
center, and lower right photographs in the Hosek
Poster, they are identical to the four photographs
on page 12 of monthly report No. 8 for the SBIR
Phase II contract (R4, tab 9 at 83, tab 15 at 115;
ex. A-43.2; ex. G-68 at 2283; tr. 3/266, 268; GPF ¶
726). The four photographs of interest from the
Hosek Poster are the top center red-color
photograph having the caption "Through left eye of

55a
CNVS-4949"; the top right pale green-color
photograph having the caption "Through right eye
of CNVS-4949"; the lower center green-color
photograph having the caption "Standard AN/AVS6 View"; and the lower right multi-color
photograph having the caption "Constructed image
illustrates effect of CNVS-4949" (ex. A-43.2; ex. G68 at 2283; GPF ¶ 728). It is apparent that the
photograph with the caption "Through left eye of
CNVS-4949" was an error and should have
contained the photograph with the caption
"Standard AN/AVS-6 View" and vice versa, which
is consistent with the photographs in monthly
report No. 8. Mr. Hosek does not recall the origin
of the top center, top right, lower center, and lower
right photographs in the Hosek Poster (tr. 3/268).
He believes that these four photographs came from
either monthly report No. 8 or the CRADA Report,
but does not recall extracting them from either
report (tr. 3/268, 4/26-27; GPF ¶¶ 728-29). As for
the top left photograph in the Hosek Poster
showing a CNVS-4949 goggle, Mr. Hosek does not
specifically recall the origin of that photograph (ex.
A-43.2; ex. G-68 at 2283; tr. 3/267-68; GPF ¶ 731).
113. Mr. Hosek held the view that the
information disclosed on the Hosek Poster was
general information (tr. 4/11; GPF ¶ 736). When

56a
preparing the Hosek Poster, Mr. Hosek did not
consider that the poster revealed any information
that was confidential or proprietary to CANVS such
as "numbers," "specific identifiers," etc.
He
characterized this poster as a "vanilla poster." {Tr.
4/13, 15; GPF ¶ 737) Mr. Hosek was knowledgeable
as to the security classification guide for night vision
equipment that controls the dissemination of
information concerning night vision devices. A
picture of the exterior of a device is not classified
under his interpretation of the guide. (Tr. 4111-12;
GPF ¶ 738)
114. Mr. Hosek on 24 February 2005 forwarded
the Hosek Poster to Mr. Piazza for use at the
upcoming Congressional Staffer Day exhibition (R4,
tab 60; exs. A-12, -28; exs. G-68, -132, ¶ 8; tr. 417-9,
213-14). Mr. Piazza does not have any present
recollection whether he forwarded the Hosek Poster
to others for use at the Congressional Staffer Day
event (tr. 4/230-32, 243-44; GPF ¶ 739).
115. On 18 February 2005 Mr. Walkenstein
forwarded to Mr. Piazza a second document that
described CANVS' night vision goggle work (2nd
supp. R4, tabs 65-67; ex. A-17; tr. 4/229). This
second document did not reveal any information that
CANVS considered to be confidential (tr. 1/154-58;
GPF ¶ 740).

57a
116. The Congressional Staffer Day took place in
Arlington, Virginia, on 28 February 2005 (2nd supp.
R4, tab 64).
117. A National SBIR Phase II Conference was
scheduled to take place in July 2005 (R4, tab 29;
ex. A-27). Likely for the purpose of highlighting
successful SBIR projects, officials from the
National SBIR Conference requested success
stories from USSOCOM (ex. A-29; tr. 4/244-45).
Ms. Virginia Hoover was a service support
contractor for the DoD SBIR office, and was
involved in the gathering of materials for the
upcoming National SBIR Conference (app. supp.
R4, tab 60; 2nd supp. R4, tab 69; tr. 4/211-13; GPF
¶ 744). Responding to her request, Mr. Piazza on 5
April 2005 forwarded the Hosek Poster to Ms.
Hoover (2nd supp. R4, tab 69; tr. 4/244-45).
118. Simultaneously, Mr. Piazza on 5 April 2005
also informed Mr. Walkenstein via email that the
USSOCOM SBIR office had selected the multispectral imaging project as a "success story" for the
upcoming National SBIR Conference. Mr. Piazza
also attached the Hosek Poster to his email to Mr.
Walkenstein. (2nd supp. R4, tab 71 at 321; tr. 4/214)
Also attached to the email was a one-page
information sheet describing the SBIR multispectral project (2nd supp. R4, tab 71 at 322; tr.

58a
4/215; GPF ¶ 747). In his 5 April 2005 email to Mr.
Walkenstein, Mr. Piazza stated that "I'm using the
information that you and Mr. Hosek previously sent
me while working the Congressional Staffers Visit to
describe your goggles"(2nd supp. R4, tab 71 at 319).
119. Mr. Piazza again on 6 April 2005 forwarded
the Hosek Poster to Mr. Walkenstein (app. supp. R4,
tab 60; 2nd supp. R4, tab 72; ex. A-20; tr. 11162-64,
4/234-35).
Specifically, Mr. Piazza asked Mr.
Walkenstein to remove all proprietary information
from the Hosek Poster so as to permit USSOCOM to
release the poster to the public (app. supp. R4, tab
60; 2nd supp. R4, tab 72 at 323; GPF ¶ 749). Mr.
Piazza stated that "[p]lease ensure that there is no
proprietary data that you would not want released"
(app. supp. R4, tab 60).
120. In turn, Mr. Walkenstein, in a 6 April 2005
email, provided Mr. Piazza with a poster having four
photographs and revised captions for the
photographs, as well as revised textual materials
(app. supp. R4, tab 59; 2nd supp. R4, tab 73; ex. A-51;
tr. 1/161, 165-66, 4/236-37, 239-40; GPF ¶ 750). This
revised poster is hereinafter referred to as the
"Sanitized Poster." Mr. Walkenstein also provided to
Mr. Piazza a revised informational sheet (2nd supp.
R4, tab 75; GPF ¶ 752). Mr. Piazza forwarded the

59a
revised information sheet to Ms. Hoover (2nd supp.
R4, tab 80; tr. 4/247).
121. In addition to the sanitized poster, Mr.
Walkenstein's email further provided an alternate
poster for the National SBIR Conference (2nd supp.
R4, tab 77; ex. A-42; tr. 1/159-61, 4/238). This poster
is hereinafter referred to as the "Alternate SBIR
Poster." Both the Sanitized Poster and the Alternate
SBIR Poster included the following textual
description: "Spectral selection optimized to present
lifelike color under moderate illumination conditions"
and "Goggle prototypes with independent variable
gain for each channel." Concerning the phosphor
tubes, the Sanitized Poster used the phrase "12 tubes
utilizing COTS components" while the Alternate
SBIR Poster used the phrase "12 tubes utilizing
COTS phosphors." (R4, tabs 59, 77 at 342; GPF ¶
755-56) The Alternate SBIR Poster did not reveal
any information that CANVS considered to be
confidential (tr. 11160-61; GPF ¶ 757).
122. In an email dated 9 May 2005, Mr.
Walkenstein asked Mr. Piazza to change a
photograph on the National SBIR Phase II
Conference webpage (ex. A-37.l; ex. G-71; tr. 4/21314). The webpage also included a textual description
of CANVS' color night vision goggle project.
Specifically, the textual description stated: "The

60a
goggles are optimized to present more lifelike color
under moderate illumination conditions, and better
contrast under all conditions. Goggle prototypes with
independent variable gain for each channel can be
used on an ANVIS compatible helmet." (Ex. A-37.2;
ex. G-71; GPF ¶ 759). The photograph on the
National SBIR Phase II Conference website was
removed and another substituted (tr. 4/219; GPF ¶
760). Mr. Piazza did not create this webpage and did
not upload this page to the National SBIR Phase II
Conference website (tr. 4/247; GPF ¶ 761).
123. The webpage from the National SBIR Phase
II Conference described CANVS' color night vision
goggle project. Specifically, the webpage stated: "The
goggles are optimized to present more lifelike color
under moderate illumination conditions, and better
contrast under all conditions. Goggle prototypes with
independent variable gain for each channel can be
used on an ANVIS compatible helmet." (R4, tab 29;
ex. A-27)
124. The 2005 SOF/APBI (an exhibition of
military wares) took place from 6-10 June 2005 at the
Tampa Convention Center. The exhibition hall was
opened for three days, 7-9 June 2005. (GPF ¶ 769)
The SOF/APBI conference was sponsored by
USSOCOM during which it briefed the industry as to
future acquisition opportunities. It was also an

61a
opportunity for vendors to exhibit their products and
technologies to the SOF community. (Ex. G-74 at
14104, ex. G-80 at 2-3, ex. G-83 at 4212). Primarily
vendors, but also government agencies, had booths
on the exhibition floor (ex. G-74 at 14110, ex. G-83 at
4222; GPF ¶ 766). Administration of the exhibition
hall and exhibitors, as well as the registration of all
attendees, was handled by a USSOCOM contractor
(GPF ¶ 767). NVESD exhibited the results of certain
projects at the 2005 SOF/APBI conference related to
the mission of USSOCOM (tr. 6/58-59; GPF ¶ 790).
125. A government employee, Mr. Soyka
forwarded all posters to be displayed at the 2005
SOFIAPBI conference to the NVESD public affairs
and security officials before the conference, including
the Hosek Poster (tr. 6/60, 73-74). The Hosek Poster,
with minor modifications not relevant to the dispute,
was displayed at the SOFIAPBI conference and is
hereinafter referred to as the "APBI Poster'' (R4, tab
12 at 98; GPF ¶ 795-96). Mr. Soyka did not contact
Mr. Walkenstein to ascertain whether any
information on the Hosek Poster should have been
deleted (GPF ¶ 800). We find that the government
did not receive express consent from appellant to
display the APBI Poster.
126. Among the posters displayed by NVESD was
the APBI Poster (GPF ¶ 802). CANVS alleges that

62a
the display of the APBI Poster resulted in the
disclosure of CANVS' proprietary information or
trade secrets at the SOF/APBI conference relative to
the CNVS-4949 goggle (GPF ¶ 803). CANVS alleges
that a comparison of the APBI Poster with monthly
report No. 8 "clearly shows that proprietary
photographs and information were displayed at a
conference at which competitors and nonGovernment persons were present" (GPF ¶ 817).
Neither the complaint nor the first supplemental
complaint
identifies
with
specificity
what
photographs or what information on the APBI Poster
was proprietary (compl. ¶¶ 5, 19, 20, 21; first supp.
compl. ¶ 11; GPF ¶ 818). CANVS' contract claim
filed on 6 June 2011 also failed to identify with
specificity what photographs or what information on
the APBI Poster was proprietary (R4, tab 11).
G. Alleged
Proprietary
Features
and
Components of CNVS-4949 and CNVS-5050
Goggles Disclosed in the APBI Poster
127. In its post-hearing brief, CANVS identified
the following eight features and components that it
alleged were proprietary and disclosed in the APBI
Poster:

63a
(1) A red-color photograph identified as the
view from one optical channel of a
binocular night vision goggle;
(2) A green-color photograph identified as
the view from the other optical channel
of a binocular night vision goggle;
(3) The phrase "12 tubes utilizing different
color phosphors" confirmed the use of
red-color
phosphor
screen
image
intensifier tube in one optical channel of
the binocular night vision goggle and the
use of a green-color phosphor screen
image intensifier tube in the other
optical channel;
(4) Independent variable gain control for
each image intensifier tube;
(5) The multi-color photograph along with
the words "constructed lifelike view" in
the caption illustrated the combining of
the red-color image from one eye of the
observer and the green-color image "from
the other eye in the brain of that
observer;
(6) The red sliver in the multi-color
photograph illustrated the combining of

64a
the red-color photograph and the greencolor photograph;
(7) The reflections from the objective lenses
of the goggle in the upper left photograph
indicated the presence of red-and greencolor filters; and
(8) The phrase "filtering optimized to present
more lifelike color" in combination with
the phrase "color imaging systems provide
improved contrast and color output using
only the image intensification band"
confirmed the use of separate red- and
green-color filters. (App. br. at 29 (citing
to GPF ¶ 855))
128. In its response to USSOCOM's
Interrogatory No. 8, CANVS identified a litany of
features displayed on the APBI Poster that
included proprietary information (ex. G-2 at 1819). Specifically, CANVS identified the following
proprietary features from the APBI Poster that
would have permitted a person skilled in the art to
build a CNVS-4949: (1) I2 tubes utilizing different
color phosphors; (2) Red-color phosphor screen
image intensifier tube in the left eye of CNVS4949; (3) Green-color phosphor screen image
intensifier tube in the right eye of CNVS-4949; (4)

65a
Goggle prototype with independent variable gain
control for each channel; (5) The phrase "filtering
optimized to present more lifelike color" in
combination with the phrase "color imaging
systems provide improved contrast and color
output using only the image intensification band";
(6) The above two phrases in combination with
three photographs on the APBI Poster that showed
images taken through each eye and the
constructed color image; (7) Color image of the
goggle itself that showed different colorations of
the reflections from the objective lenses indicated
green and red filters; and (8) The color image of
the reflections plus the individual photographs
taken through each image intensifier tube of the
goggle would allow one skilled in the art to select
the filter colors, and the corresponding colors of the
phosphor screens (id., GPF ¶ 821).
129. In its response to USSOCOM's
Interrogatory No. 11, CANVS identified the
"sufficient information" that would have permitted
a person skilled in the art to construct a CNVS4949 goggle from the photographs and the
associated captions (ex. G-2 at 21-22). As for the
top left photograph showing the goggle, along with
the caption "Helmet mounted Goggle, CNVS4949," the skilled observer would have acquired

66a
the following "sufficient information" : ( I) This
photograph disclosed red and green color filters
which were mounted over the objective lenses of
the goggle; (2) An inspection of the physical CNVS4949 goggle would have revealed the use of the red
and green external filters and the different color
phosphor screens for the image intensifier tubes;
(3) The colored reflections from the external filters
would correspond to the red and green phosphor
screens for the image intensifier tubes; and (4) The
skilled observer would have understood that
colored phosphor screens and filters were used on
the goggle (id.; GPF ¶ 822).
130. In its response to USSOCOM's
Interrogatory No. 11, CANVS stated that the
skilled observer would have acquired the following
"sufficient information" from the top center reddish
photograph, along with the caption "Tirrough left
eye of CNVS-4949": ( 1) From the red image, the
skilled observer would have understood that the
filter and phosphor screen in the left optical
channel had created that red image; and (2) The
skilled observer would have noticed the contrast
between the clouds and the sky in this image (ex.
G-2 at 21-22; GPF ¶ 823).
131. In its response to USSOCOM's
Interrogatory No. 11, CANVS stated that the

67a
skilled observer would have acquired the following
"sufficient information" from the top right greenish
photograph, along with the caption "Through right
eye of CNVS-4949": (1) From the green image, the
skilled observer would have understood that the
filter and phosphor screen in the right optical
channel had created that green image; (2) The
skilled observer would have noticed the lack of
contrast between the clouds and the sky; and The
skilled observer would have noticed the high
contrast between the trees and the power pole in
this image (ex. G-2 at 22; GPF ¶ 824).·
132. In its response to USSOCOM's
Interrogatory No. 11, CANVS stated that the
skilled observer would have acquired the following
"sufficient information" from the lower right
photograph, along with the caption "Constructed
life-like image illustrates effect of CNVS- 4949":
(1) The skilled observer would have understood
that this blended-color photograph was an overlay
of the separate red and green photographs because
of the misalignment of the constructed image; (2)
The skilled observer would have understood that
the blended-color photograph was intended to
simulate the biological fusion of the red image and
the green image; and (3) The skilled observer
would have appreciated the benefit of using

68a
different phosphor and filters for the optical
channels would enhance the color contrast of the
image; for example, sharper contrast among the
trees due to the high degree of infrared reflectivity
from the leaves (ex. G-2 at 22-23; GPF ¶ 825).
133. In its response to USSOCOM' s
Interrogatory No. 11, CANVS stated that the
skilled observer would have acquired the following
"sufficient information" from the lower center
greenish photograph, along with the caption
"Standard Image Intensified View": (1) When
compared to the red image from the left optical
channel, the green image from the right optical
channel, and the blended-color constructed view,
the skilled observer would have noticed benefits of
color contrast from those photographs showing
greater detail within and between objects (ex. G-2
at 23-24; GPF ¶ 826).
134. In its response to USSOCOM's
Interrogatory No. 11, CANVS stated that the
skilled observer would have acquired the following
"sufficient information" from the phrase "12 tubes
utilizing different color phosphors": (1) Alerted the
skilled observer to observe the photographs more
closely to differentiate the different phosphors (ex.
G-2 at 24; GPF ¶ 827).

69a
135. As perhaps awkwardly phrased by the
government's proposed finding in its response to
USSOCOM's Interrogatory No. 11, CANVS stated
that the skilled observer would have acquired the
following "sufficient information" from the phrase
"filtering optimized to present more lifelike color"
in combination with the phrase "color imaging
system provide contrast and color output using
only the image intensification band": When
combined with the photographs, would have
permitted the skilled observer to build a binocular
goggle by selecting the red-color phosphor image
intensifier tube, the red-color phosphor tube, along
with corresponding external filters, that would be
capable of providing a blended-color image; and (2)
The blended-color image would provide enhanced
color contrasts (ex. G-2 at 24; GPF ¶ 828).
136. In its response to USSOCOM's
Interrogatory No. 12, CANVS discussed how the
skilled observer would use the "sufficient
information" discussed in Interrogatory No. 11 to
construct a CNVS-4949 goggle (ex. G-2 at 25-26).
Specifically, the skilled observer would have
deduced the following: (1) Based on the reflection
from the external filter, a red-color filter would
need to correspond to the red-color phosphor image
intensifier tube, as confirmed by the red-color

70a
image for the left optical channel; (2) Based on the
reflection from the external filter, a green-color
filter would need to correspond to the green-color
phosphor tube, as confirmed by the green-color
image for the right optical channel; (3) Based on
the caption "combined lifelike image," the blendedcolor image would have been generated in the
brain from the red and green image intensifier
tubes; (4) The phrase "12 tubes utilizing different
color phosphors," would have confirmed critical
components need to construct the goggle; and (5)
The phrase "filtering optimized to present more
lifelike color under moderate illumination
conditions, and better contrast under all
conditions" would have also confirmed the benefits
of the goggle (id.; GPF ¶ 829).
137. Mr. Walkenstein testified that much of the
proprietary information disclosed on the APBI
Poster originated from monthly report No. 8 for the
SBIR Phase II contract (tr. 11128). Specifically, the
four photographs on page 12 of monthly report No.
8 appeared on the APBI Poster (GPF ¶ 833). It is
unclear from our examination of the record
whether the APBI Poster included data or
information from other reports delivered by
appellant under the SBIR Phase II contract.

71a
138. Mr. Walkenstein testified that the APBI
Poster disclosed CANVS' proprietary information
as to having a red-color phosphor image intensifier
tube for one eye and a green-color phosphor image
intensifier tube for the other eye (GPF ¶ 834).
139. If the reddish image of the top center
photograph on the APBI Poster were viewed alone
without the caption and the descriptive text, Mr.
Walkenstein testified, there were many different
color phosphor screens and filters that could have
created the reddish image (R4, tab 12 at 98, tab 16
at 119; ex. A-96; tr. 3/35; GPF ¶ 835). Mr.
Walkenstein testified that a red-color phosphor, or
green-color phosphor, or white-color phosphor,
used in conjunction with an appropriate filter,
would create the reddish image (tr. 3/48).
140. If the reddish image of the top center
photograph on the APBI Poster were viewed in
conjunction with the caption "Through left eye of
the CNVS-4949," Mr. Walkenstein testified, a
person viewing the APBI Poster would not be able
to discern the color of the phosphor screen used to
create the reddish image of a scene through the
left channel of the goggle (R4, tab 12 at 98, tab 16
at 119; ex. A-96; tr. 3/35-39; GPF ¶ 836).

72a
141. If the greenish images on the APBI Poster
were viewed alone without the captions and the
descriptive text, Mr. Walkenstein testified, there
were many different-color phosphor screens and
filters that could have created the greenish image
(R4, tab 12 at 98, tab 16 at 119; ex. A-96; tr. 3/35;
GPF ¶ 837). Mr. Walkenstein testified that a redcolor phosphor, or green-color phosphor, or whitecolor phosphor, used in conjunction with an
appropriate filter, would create the reddish image
(tr. 3/48-49).
142. If the greenish images on the APBI Poster
were viewed in conjunction with the caption
"Through right eye of CNVS-4949," Mr.
Walkenstein testified, a person viewing the APBI
Poster would not have been able to discern the
color of the phosphor screen used to create the
greenish image of a scene through the right
channel of the goggle (R4, tab 12 at 98, tab 16 at
119; ex: A-96; tr. 3/39-40; GPF ¶ 838).
143. If the multi-color image in the lower right
photograph on the APBI Poster were viewed
together with reddish image and the greenish
image, along with their captions, Mr. Walkenstein
testified, a person viewing the APBI Poster would
have been able to discern that the multi-color
image was constructed from the red image and the

73a
green image (R4, tab 12 at 98, tab 16 at 119; ex. A96; tr. 3/40-42, 49-50; GPF ¶ 839). Mr. Walkenstein
testified that the person would have concluded
that a red-color phosphor view was presented to
one eye and a green-color phosphor view was
presented to the other eye. However, Mr.
Walkenstein testified that that person would not
know the specific red-color phosphor used. (Tr.
3/42)
144. Because Mr. Walkenstein had used a
computerized video technique to create the multicolor photograph as opposed to overlaying existing
photographic images (tr. 1/132-33, 3/43-45), he
testified, the term "constructed" was more
appropriate to describe the multi-color photograph
(tr. 3/49-50; GPF 840). He stated that he created
the photograph by using images taken by Dr.
McLean at USAARL that "were sent to me in
digital format. They were changed from color
format to black and white format. They were then
mathematically mapped to the red and green
channels and produced in digital image. Then
based on the misalignment, I moved them over,
created the image." (Tr. 3/44-45) The APBI Poster
did not disclose the method and techniques used by
Mr. Walkenstein to create this photograph.

74a
145. As for the top left photograph on the APBI
Poster, Mr. Walkenstein testified that an observer
would perceive a green-color filter and a red-color
filter due to the fact that different colored light
was bouncing off the filters (R4, tab 12 at 98, tab
16 at 119; ex. A-96; tr. 1/145). Based on the
different coloration of the filters, Mr. Walkenstein
testified, one skilled in the art would have
recognized the presence of two different color
filters capable of passing different wavelength
bands (tr. 1/145-46). This was allegedly CANVS'
proprietary information (tr. 1/144-46; GPF ¶ 841).
146. Mr. Walkenstein testified that different
colorations in the filters in the top left photograph
did not disclose the specific spectral band, i.e., the
exact bandpass information for the filters (tr.
1/145-46; GPF ¶ 842).
147. Mr. Walkenstein testified that the phrase
"color imaging systems provide improved contrast
and color output using only the image intensified
band" under the "Payoff ' section of the APBI
Poster disclosed that color was obtained through
the spectral response of the goggle's image
intensifier tubes (R4, tab 12 at 98, tab 16 at 119;
ex. A-96; tr. 1/147; GPF ¶ 844).

75a
148. Mr. Walkenstein testified that the phrase
"Filtering optimized to present more lifelike color
under moderate illumination" revealed the use of
inputs to the image intensifier tubes (R4, tab 12 at
98, tab 16 at 119; ex. A-96; tr. 9/292; GPF ¶ 845).
149. Mr. Walkenstein testified that the phrase
"goggle prototypes with independent variable gain
for each channel" was CANVS' proprietary
information (R4, tab 12 at 98, tab 16 at 119;·ex. A96; tr. 1/144; GPF ¶ 849).
H. Expert Testimony on Issue of Whether APBI
Poster Disclosed Proprietary Features and
Components of CNVS-4949 and CNVS-5050
Goggles
150. Appellant's expert witness, Mr. Gillespie,
in his initial expert report, dated 26 July 2013,
specifically stated that he would not opine as to
whether any of the information displayed on the
APBI Poster was CANVS' proprietary technical
data. Instead, Mr. Gillespie assumed that the
information displayed on the APBI Poster was
CANVS' proprietary technical data for the
purposes of his analysis. (Ex. A-85.10, ¶ 20; GPF ¶
853). At the hearing, Mr. Gillespie acknowledged
that "the intent of my [expert] report here is not to
discuss proprietary information. It was to discuss

76a
whether technical data is being disclosed or not.
So it's assumed that its proprietary data, but
whether it is or isn't is not a subject of my
testimony, either now or in this paper [expert
report]." (Tr. 5/165; GPF ¶ 854)
151. Mr. Gillespie's expert report defined "a
person of ordinary skill in the art" as someone with
experience and knowledge working with image
intensification and thermal imaging techniques
and their components and properties; experience in
applying these technologies to military tactical
environments; and a thorough understanding of
the principles of physics with respect to light,
thermal radiation, optics, and filters (ex. A-85, ¶¶
17-19). He later concluded that the photographs
and textual narrative in the APBI Poster would
enable a skilled engineer to observe the physical
characteristics of the image intensifier tubes and
color filters to recreate and build the CNVS-4949
goggle (id. ¶¶ 3, 20). Additionally, he stated a
physical examination of the CNVS-4949 goggle at
the conference would allow a person to observe the
physical characteristics of the phosphor tubes and
the colored filters (id ¶ 3). Although Mr. Gillespie
did not identify himself as an engineer and the
government objected to his admission as an expert
(tr. 5/131), we find that his background and

77a
experience in the night vision technology industry,
particularly his years of experience as a program
manager
and
research
and
development
coordinator at NVESD, qualify him as an expert.
His reports and testimony were previously
admitted into the record.
152. According to Mr. Gillespie, the APBI
Poster identified the major components of the
CNVS-4949-the housing of the goggle; the red and
green phosphor intensifier tubes for each channel,
and matching red and green optical filters affixed
to the objective lenses of each channel (tr. 5/13638). His initial expert report asserted that a skilled
observer would recognize that the red and green
photographs of each channel of the goggle
corresponded to a red and green phosphor tube and
filter; that the multi-colored photograph was the
simulated "biologic fusion" of the red and green
photographs in which "the observer would learn
the benefit that the two phosphor/filter colors
would have on enhancing the color contrast of the
image of the scene displayed to the viewer''; and
that the standard AN/AVS-6 image, in
combination with the other photographs, would
reveal the choice of red and green filters and
phosphor screens to optimize the lifelike color of
that image (ex. A-85, ¶ 24).

78a
153. When a user positions his eyes toward the
eyepiece side of a CNVS-4949 goggle, he would
immediately see a red-color optical channel and a
green-color optical channel (tr. 3/18-19, 223). The
red image of the top center photograph of the APBI
Poster is what a user of a CNVS-4949 would see
from the eyepiece side (R4, tab 12 at 98, tab 16 at
119; ex. A-96; tr. 3/52). When a user looks at the
objective lens side of a CNVS-4949 goggle, he
would discern different coloration on the optical
channel which is an indication that different-color
filters are being used (tr. 3/21-22, 225-28). When a
user is using the CNVS-4949 goggle, he would
need to adjust the independent manual gain
control mechanisms to adjust the brightness in
each image intensifier tube (tr. 8/67, 90).
154. When a user of a CNVS-4949 goggle
positions his eyes toward the eyepiece side of the
goggle, he would immediately see a red-color
optical channel and a green-color optical channel
(tr. 3/18-19, 8/83). Mr. Walkenstein stated that the
red image of the top center photograph of the APBI
Poster is what a user of a CNVS-4949 goggle would
see from the eyepiece side (R4, tab 12 at 98, tab 16
at 119; ex. A-96; tr. 3/52; GPF ¶ 902). When a user
looks at the objective lens side of a CNVS-4949
goggle, he will discern different coloration on the

79a
optical channel which is an indication that
different-color filters are being used (tr. 3/21-22;
GPF ¶ 904). When a user is using the CNVS-4949
goggle, he will need to operate the independent
manual gain control mechanisms so as to adjust
the brightness in each image intensifier tube (tr.
8/67, 90; GPF ¶ 905). The following findings
address issues regarding the alleged proprietary
issues raised by appellant and Mr. Walkenstein's
testimony.
155. Relative to the top center photograph on
the APBI Poster showing a reddish image (R4, tab
12 at 98, tab 16 at 119; ex. A-96), it was public
knowledge or generally known in the night vision
industry as of 2005 that an image intensifier tube
having any type of phosphor when used with an
appropriate external filter would create a reddish
image (tr. 4/109, 9/88-90). The phosphor used could
be green-color phosphors, red-color phosphors, or
white-color phosphors (id.). The appropriate filter
would be one that permitted the passage of redcolor wavelengths (tr. 4/109, 9/88-90; see ex. G-139
at 6; GPF ¶ 856).
156. Relative to the two photographs on the
APBI Poster showing a greenish image (R4, tab 12
at 98, tab 16 at 119; ex. A-96), it was public
knowledge or generally known in the night vision

80a
industry as of 2005 that an image intensifier tube
having any type of phosphor when used with an
appropriate external filter would create a greenish
image (tr. 9/91, 93). The phosphor used could be
green-color phosphors, red-color phosphors, or
white-color phosphors (tr. 9/91). The appropriate
filter would be one that permitted the passage of
green-color wavelengths (tr. 9/91; see ex. G-139 at
6; GPF ¶ 857).
157. As for the greenish image shown in the top
right photograph on the APBI Poster, even if the
caption was corrected to indicate that it was a
standard night vision view, it was general
knowledge by 2005 that the greenish tint was the
standard coloration of conventional night vision
goggles (GPF ¶ 858).
158. As of 2005, it was public knowledge or
generally known in the night vision industry that a
binocular night vision goggle could create a
reddish image for one optical channel and a
greenish image for the other channel (R4, tab 12 at
98; ex. A-96; tr. 9/94-98, 101-02). The phosphor
used could be green-color phosphors, red-color
phosphors, or white-color phosphors (tr. 9/95, 10102). The appropriate filter would be one that
permitted the passage of red-color or green-color
wavelengths (tr. 9/95, 101-02; see ex. G-139 at 6;

81a
GPF ¶ 859). According to monthly report No. 8
delivered under the SBIR Phase II contract, the
reddish image was acquired through a "RG-665
2mm thick filter material" and the greenish image
was acquired through a "Hotmirror filter" (R4, tab
9 at 83). These characteristics and specifications
of the filters were not disclosed in the APBI Poster.
159. The simultaneous presentation of a
reddish image in one optical channel and a
greenish image in the other channel of a binocular
night vision goggle was already ·disclosed in the
1992 Field Patent (ex. G-139 at 23-24, ex. G-169;
tr. 9/94-95). The reddish image would have been
created by a red-color external filter which is
identified as filters 51a, 51b, 52a, or 52b in Figures
5A and 6A of the patent. The greenish image
would have been created by a green-color external
filter. (Ex. G-169 at 4; tr. 9/95-97; GPF ¶ 860)
160. As for the top left photograph on the APBI
Poster illustrating a binocular goggle having
purported red coloration or hue on one of its
objective lens (R4, tab 12 at 98, tab 16 at 119; ex.
A-96), it was public knowledge or generally known
in the night vison industry as of 2005 that the
coloration of reflections from external filters was
dependent on the angle of the light source (ex. G139 at 15-17; tr. 9/102-07; GPF ¶ 863). This

82a
photograph is a colored image of the CNVS-4949
goggle.
161. As for the phrase "Filtering optimized to
present more lifelike color" shown on the APBI
Poster (R4, tab 12 at 98, tab 16 at 119; ex. A-96), it
was public knowledge or generally known in the
night vision industry as of 2005 that there were a
variety of techniques that were capable of
performing the rather generic term of "filtering"
(tr. 9/123). Filtering techniques included "spectral
filtering," "polarization filtering," "temporal
filtering," or "spatial filtering" (id.; GPF ¶ 865).
162. In his expert report, the government's
expert witness, Dr. Waxman, stated that it was
"impossible by simply looking at one visible
photograph, or even by casual inspection of an
assembled device..., to infer a filter's spectral
characteristics such as cut-on wavelength, cut-off
wavelength, spectral transmission characteristics,
filter thickness, material composition, and
importantly its characteristics in the near-IR part
of the NVG [night vision goggle] spectrum" (ex. G139 at 13-14, ¶ 14.6). Dr. Waxman testified that
filtering could encompass spectral filtering using
band pass filters, filtering with polarizers, and
modulating any part of the tube (tr. 9/218). On
cross-examination,
appellant's
expert,
Mr.

83a
Gillespie, stated that spectral filtering of
intensifier tubes was commonly known prior to
June 2005 (tr. 5/198).
163. Mr. Gillespie asserted that a skilled person
would observe that the red and green colors of the
objective filters in the colored photograph of the
CNVS-4949 goggle match with the intensifier tube
phosphor screens upon examination of the physical
goggle (ex. A-85, if 23). The government's expert,
Dr. Waxman, disputed this assertion. He asserted
that the APBI Poster did not divulge specific
characteristics of the spectral filters, including the
cut-on
and
cut-off
wavelengths,
spectral
transmission characteristics, filter thickness, filter
material, and the characteristics in the near-IR
part of the night vision goggle spectrum (ex. G-139,
¶¶ 14.2, 14.6; tr. 9/90-91). He further explained
that the visible appearance of a filter through
photographs or visual inspection conveyed nothing
about a filter's spectral characteristics and
properties. He asserted that the filter on the red
channel could appear red, blue, or green and the
filter on the green channel could appear blue or
green depending on several factors such as the
viewing angle, the angle of incidence of incoming
light, and the design and composition of the
spectral filters. (Ex. G-139, ¶¶ 14.8-14.11) The

84a
government's witness, Mr. Bender, stated that the
wavelength selection was a critical component in
analyzing and evaluating a goggle (tr. 6/217).
164. On cross-examination, Mr. Gillespie stated
that the characteristics and properties of the filters
would be important in configuring a night vision
goggle. He stated that one would not communicate
to a manufacturer the color of the filter but provide
"a specification, and a wave length that they had
to pass or not pass the cut off filters." (Tr. 5/176)
On recross-examination, he further confirmed that
a skilled person viewing the photographs and
visually examining the CNVS-4949 goggle could
not determine whether a "hotmirror" filter was
used and what wavebands were filtered (tr. 5/26768). We find that Mr. Gillespie's testimony
supports Dr. Waxman's assessment that the
spectral characteristics of a filter could not be
determined by the photographs in the APBI Poster
and visual examination of the physical goggle.
165. As for the phrase "12 tubes utilizing
different color phosphors" shown on the APBI
Poster (R4, tab 12 at 98, tab 16 at 119; ex. A-96), it
was public knowledge or generally known in the
night vision industry as of 2005 that image
intensifier tubes may employ phosphors of

85a
different colors, even red-color phosphors (tr. 9/50,
113-14, 122; GPF ¶ 864).
166. Mr. Gillespie asserted that the phrases "12
tubes utilizing different colored phosphors" and
"Color Imaging systems provide improved contrast
and color output
using only the image
intensification band," in combination with the
photographs, would have further revealed to a
skilled person the use of red and green phosphor
tubes and filters (ex. A-85, ¶¶ 25, 27). At the
hearing though, Mr. Gillespie stated that a skilled
person "would suspect or easily project" that a red
and green phosphor were used because they were
known in the industry. He added that the APBI
Poster did not explicitly state a white phosphor or
a different colored phosphor. (Tr. 5/152)
167. Dr. Waxman testified that the red
photograph would reveal that "the filters pass
band must at least include some of the part of the
spectrum that we tend to call red" but not the
exact color of the phosphor, and that any phosphor
with appropriate filters could generate the images
(tr. 9/90, 92). This is consistent with Mr.
Walkenstein's testimony in which he stated that
the red photograph could be achieved by placing a
white or red phosphor with the appropriate
spectral filter (tr. 3/48-49). Dr. Waxman opined

86a
that the red and green photographs in the APBI
Poster were exact images from a goggle disclosed
in the 1992 Field Patent (tr. 9/97-98).
168. Mr. Hosek testified that, when viewing the
red photograph and caption in the APBI Poster, he
could not determine whether a red, white, or a
colored phosphor with red content and a filter that
strips other colors out of the phosphor was used to
produce the image (tr. 4/109).
169. As for using independent variable gain for
each channel of the night vision goggle, it was
public knowledge or general knowledge in the
night vision industry by 2005 that such
independent variable gain controls were available
in existing night vison goggles in the market place.
For example, the advertising material for the ITT
F4949 and F5050 goggles indicated their use of
such independent gain control mechanisms. (Ex.
G-219 at 3, 4) Even CANVS' own website in 2005
illustrated independent gain control mechanisms
for the CNVS-4949 goggle (ex. G-58; GPF ¶ 866).
170. Mr. Gillespie stated that the photographs
in the APBI Poster supplied a skilled person with
"benchmark data points" to confirm the proper
construction and configuration of the CNVS-4949
goggle (ex. A-85, ¶ 25). At the hearing, he opined

87a
that one could easily test and validate to confirm
the proper configuration (tr. 5/259). However, he
did not further explain the time, effort, and
expense to perform such a validation.
Mr.
Walkenstein testified that thousands of filters
were tested by CANVS over a ten-year period (tr.
3/34). We find Mr. Gillespie's testimony that
testing and validation of the construction and
configuration of the filters would be relatively easy
is unpersuasive.
171. Mr. Walkenstein testified that an extended
cathode was an attribute to the phosphor tube that
was not disclosed in the APBI Poster (tr. 3/33).
Nothing in the APBI Poster disclosed the
particular type or model of the phosphor tube used
to acquire the displayed photographs.
172. Appellant has not presented any evidence
to indicate that any individual other than Mr.
Walkenstein had both actually seen the APBI
Poster at the 2005 SOF/APBI conference and
understood the alleged proprietary information or
trade secrets that were displayed on that poster
(GPF ¶¶ 973, 976).

88a
I. CANVS Disclosed Claimed Proprietary
Features and Components Prior to June
2005
173. Appellant disseminated the allegedly
proprietary information to persons, organizations,
and firms outside the U.S. Government without
obtaining nondisclosure agreements. In particular,
the goggles and accompanying descriptions were
included in marketing literature and available on
the company's website. (GPF ¶¶ 886-91, 893-95,
897) On recross-examination, Mr. Walkenstein
stated that, although CANVS may not have sold
CNVS-4949 or CNVS-5050 goggles prior to
submitting its SBIR Phase II proposal to the
government, it was actively marketing and selling
goggles that were identical in performance and
capability. He stated that one could buy a goggle
directly from CANVS or retrofit a goggle
incorporating the CANVS technology. (Tr. 11/7981)
174. Appellant disseminated the allegedly
proprietary information to individuals employed by
U.S. Government agencies not involved with the
USSOCOM SBIR color night vision program
without obtaining nondisclosure agreements (GPF
¶¶ 873, 879-85, 892, 897).

89a
175. CANVS demonstrated its color night vision
goggles to many potential public and private
customers by 2005, including the demonstrations
that took place at the 2003 and 2005 Force
Protection Equipment Demonstrations (FPEDs)
(R4, tab 7 at 62; ex. G-42 at 1649-653; exs. G-84, 85; tr. 2/38-40, 43, 3/17-18).
CANVS also
permitted potential customers to use the goggles
(exs. G-84, -85; tr. 2/38-40, 43, 3/17-18; GPF ¶ 906).
Organizers of the FPEDs did not require attendees
to sign nondisclosure agreements and attendees
were not obligated to protect any confidentiality
associated
with
displayed
products
and
demonstrations (tr. 7/142).
176. CANVS showed its products to other
vendors at the FPEDs, including the CNVS-4949
goggles (tr. 3/28; GPF ¶ 1910). The CANVS color
night vision goggles demonstrated at the FPEDs
were operable (tr. 3/18; GPF ¶ 907). Users of the
CNVS-4949 goggle could clearly see a red channel
and a green channel (tr. 3/18-19; GPF ¶ 909). The
CNVS-4949 goggles demonstrated at the FPEDs
included external filters. Those who used the
CNVS-4949 goggles at the FPEDs saw the external
filters. (Tr. 3/19, 21-22; GPF ¶ 908)

90a
177. As relevant here, the criteria for
attendance at the 2005 SOFI APBI conference
were substantively the same as the criteria for
attendance at the 2003 and 2005 FPEDs (GPF ¶
968). Mr. Walkenstein held the incorrect belief
that the 2003 and 2005 FPEDs, unlike the APBI
conference, were "closed" conferences such that he
could freely display and demonstrate fully
operative CNVS-4949 goggles (GPF ¶ 970). On
cross-examination, Mr. Walkenstein testified that
attendees participating in the demonstrations did
not sign nondisclosure agreements (tr. 3/19).
178. Photographs and textual materials from
the APBI Poster alleged to be trade secrets or
proprietary information appeared in the Sanitized
Poster or the Alternate SBIR Poster.
Mr.
Walkenstein prepared both of these posters and
provided them to USSOCOM for use at public
events. (App. supp. R4, tab 60; 2nd supp. R4, tab
72 at 323, tabs 73, 77; exs. A-42, -51; tr. 1/159-61,
236-38; GPF ¶ 911) Specifically, a green-color
photograph having the caption "Standard AN/AVS6 View" is present in both the Sanitized Poster and
the Alternate SBIR Poster (2nd supp. R4, tab 73 at
330, tab 77 at 342). This photograph is identical to
the lower center photograph on the APBI Poster
(R4, tab 12 at 98). There is no dispute that a

91a
green-color view, along with the caption indicating
that it is the view of a standard monochromatic
night vision goggle, was not a trade secret or
proprietary information (tr. 1/160-61; GPF ¶ 912).
In addition, a multi-color photograph having the
caption "CNVS Color Goggle View" is present in
both sanitized posters (2nd supp. R4, tab 73 at
330, tab 77 at 342; GPF ¶ 913). This photograph is
essentially identical to the lower right photograph
of the APBI Poster; however, the APBI Poster's
photograph contains a red "sliver'' along the border
of the image (R4, tab 12 at 98).
179. The Sanitized Poster clearly identified the
night vision goggle as a "CNVS-4949 Helmet
Mounted Aviation Color Night Vision Goggle." This
photograph and description also appeared in the
Alternate SBIR poster.
Under the "Payoff '
section, the Sanitized Poster stated that "[t]he
Color Imaging Systems provide improved contrast
and color output using only the image
intensification band."
This exact phrase also
appeared in the Alternate SBIR poster. Under the
"Description" section, the Sanitized Poster stated
that "[s]pectral selection optimized to present more
lifelike color under moderate illumination
conditions, and better contrast under all
conditions." This exact phrase also appeared in the

92a
Alternate SBIR poster. (2nd supp. R4, tab 73 at
330, tab 77 at 342; GPF ¶¶ 915-17)
J. The Appeals
180. In its claim letter, dated 6 June 2011,
CANVS referred to the APBI Poster, but it did not
identify with particularity the alleged trade secrets
or proprietary information revealed by that poster.
The claim letter merely alleged that "[a]
comparison of the display and at least the monthly
report 8 of 15...clearly shows that proprietary
photographs and information were displayed at a
conference....
This display included technical
details sufficient to manufacture the device." (R4,
tab 11) The letter contended that the government
improperly disclosed the alleged proprietary
information to SOF/APBI conference attendees
that included non-government and foreign entities
and competitors of CANVS. CANVS alleged that
data from other technical reports outside of the
APBI Poster were also released based upon the
government's award of contracts to its competitors,
and that it was unable to secure "procurement"
funding from industry and government sources for
its night vision goggle products.
The letter
demanded $100 million in breach damages from
the government and included a Contract Disputes
Act (CDA) certification. (Id.)

93a
181. By correspondence dated 19 September
2011, CANVS filed its notice of appeal to the Board
from the deemed denial on the 6 June 2011 claim
by the contracting officer.
The appeal was
docketed as ASBCA No. 57784.
182. On 11 January 2012, the contracting
officer issued a final decision denying the claim in
its entirety. The contracting officer concluded that
the allegations in the claim were unsubstantiated
and baseless. (Supp. R4, tab 43 at 279, 281) He
asserted, among other things, that the
photographs and descriptions of the device and
components were not proprietary data; that the
government did not violate the 7018 clause under
the SBIR Phase II contract; and that the
government has not awarded any color night vision
technology contracts to date (id. at 281-82).
CANVS timely appealed from this final decision
which was docketed by the Board as ASBCA No.
57987. The identical issues are presented in both
appeals. Accordingly, we dismiss ASBCA No.
57784 as duplicative.
183. In its initial complaint, CANVS expanded
that the alleged improper disclosure deprived it of
an "income-producing asset" and affected its ability
to receive an SBIR Phase III award or production
contract for its night vision goggles (compl. ¶ 44).

94a
K. Additional Findings
184. There is no evidence that between the
2005 SOF/APBI Conference and the completion of
the hearing, that any manufacturer in the U.S.
military market has even begun to manufacture a
device similar to the CNVS-4949 goggle (GPF ¶
977). Both Mr. Hosek and Mr. Soyka testified that
they were not aware of any red/green direct view
night vision goggles currently being manufactured
(GPF ¶¶ 978-79). Mr. Robert Kabala, the
USSOCOM night vision program manager from
1998 to 2010, testified that USSOCOM has not
purchased any direct view color night vision
goggles from any other source (tr. 7/205-06; GPF ¶
980). Additionally, Mr. Kabala's direct successor
and the current USSOCOM night vision program
manager, Mr. Miguel Isasmendi, testified that
since 2007 he is unaware of any color night vision
goggles being fielded (tr. 8/14-16, 31-32; GPF ¶
980). CANVS' expert witness, Mr. Gillespie, could
not identify a single manufacturer of a similar
device (tr. 5/220; GPF ¶ 981).
185. Mr. Walkenstein testified that he is aware
of only one entity that has manufactured color
night vision goggles using different color
phosphors in different optical channels since 2005.
According to Mr. Walkenstein, that entity is the

95a
Russian government or a manufacturer having a
relationship with the Russian government. (Tr.
3/82-83; GPF ¶ 982) CANVS has produced no
technical details or other substantiating evidence
regarding this alleged Russian manufacturer of a
night vision goggle having different color
phosphors in different optical channels. There is no
documentary proof in the record relating to this
alleged Russian night vision goggle. CANVS has
produced no evidence to indicate that this alleged
Russian
manufacturer
had
gleaned
the
information concerning color night vision goggles
from the APBI Poster. (Tr. 3/83-84; GPF, ¶¶ 98384)
186. There is no persuasive evidence that
CANVS contacted the USSOCOM contracting
officer, nor any contracting official about this
incident until it was about to file its contract claim
in early June 2011 (tr. 3/57-58). Mr. Walkenstein
did not contact directly any USSOCOM contracting
official during this period (tr. 3/69). Even though
CANVS was performing tasks under the
USSOCOM Contract No. H92222-05-C-0030
between mid-2005 and late 2006, Mr. Walkenstein
has no recollection of contacting a USSOCOM
contracting officer regarding the display of the
APBI Poster (tr. 3/70-71).

96a
187. Mr. Walkenstein has no recollection of
having contacted any USSOCOM official regarding
the alleged improper disclosure at the 2005
SOF/APBI during 2005 or 2006 (tr. 2/68-69, 3/5859, 66-67). Mr. Walkenstein did not contact
USSOCOM directly by sending any written
communication regarding this alleged breach
between the 2005 SOF/APBI conference and the
filing of the contract claim in mid-2011. Mr.
Walkenstein has no recollection of contacting
anyone at NVESD regarding the alleged improper
disclosure at the 2005 SOF/APBI conference from
the time of the alleged breach in June 2005 to time
of the filing of the contract claim in 2011. He has
no recollection of contacting Mr. Hosek regarding
the display of the APBI Poster. He has no
recollection of contacting Mr. Soyka regarding the
display of the APBI Poster. (Tr. 2/68-69, 3/58-60,
66-67; GPF ¶ 991) He testified that contacting any
USSOCOM official would have been futile, akin to
"being mugged by a police officer and then
thinking if you report the crime to him you're going
to get your wallet back and treated fairly. So I
didn't think it was appropriate for me to talk
directly to the people I was having a problem with
immediately and to go through their chain of
command." (Tr. 2/70, 3/57-58; GPF ¶ 986)

97a
188. CANVS did not contact any USSOCOM
official associated with night vision equipment
such as officials in the USSOCOM program office.
Specifically, he did not mention this event to Mr.
Kabala, who was the program official overseeing
the development of night vision equipment, in
2005 or 2006. (Tr. 7/163, 173; GPF ¶ 987)
189. The day following the SOF/APBI
conference, Mr. Walkenstein met with Navy CAPT
Rowland Huss who headed the overall program
office responsible for the development of night
vision equipment. Mr. Walkenstein had a brief
conversation with both CAPT Huss and Mr.
Kabala; and the alleged breach that had occurred
the previous day was not discussed. (Tr. 2/48,
7/160-63; GPF ¶ 988)
190. On 15 June 2005, Mr. Walkenstein
forwarded an email to many members of Congress
seeking assistance in funding the purchase of
CANVS' color night vision goggles (R4, tab 37). In
its request, CANVS touted the fact that its
technology had been highlighted at the recent
SOF/APBI conference (id at 266; ex. G-106 at 1562;
tr. 7/168-69). Specifically, Mr. Walkenstein stated
that "[t]his technology was also recently
highlighted (by SOCOM and U.S. Army Research,
Development, and Engineering Command) through

98a
a series of briefings and demonstrations at SOF
APBI week (7-9JUN05) in Tampa Florida" (R4, tab
37 at 266, tab 44 at 284; ex. G-106 at 1562; tr.
3/61-62). This communication was intended to
encourage the U.S. Congress to appropriate funds
to purchase CANVS' goggles (tr. 3/65, 7/169-70).
CANVS also forwarded this communication to The
Washington Post (ex. G-106 at 1557; tr. 3/62-63; see
also GPF ¶ 990).
DECISION
I. Government Motion to Strike
The government has moved to strike
substantial portions of appellant's briefs for failure
to comply with the Board's briefing order. We
agree with the government that appellant has
substantively failed to comply with that order.
Appellant's initial brief provided few citations to
the record supporting its proposed factual findings
and, to the extent record citations are included,
those citations are often inaccurate and misstate
the record. In addition, although appellant's reply
brief is 395 pages in length, the vast majority of
that brief merely quotes verbatim each of the 1,002
proposed findings set forth in the government's
initial brief. In general, appellant has simply
responded to the government's proposed findings

99a
with blanket denials or argumentative assertions
such as "not correct" or "untrue," or the
government "mischaracterizes" the record without
elaboration or providing supporting citations
specifically addressing and/or refuting the
accuracy of references to the record set forth in the
government's proposed findings. Appellant's
noncompliance has frustrated the intent and
purpose of identifying and refining factual issues
through precise references to the evidentiary
record, permitting the Board to carefully analyze
and weigh conflicting testimony and proof. It is
not for the Board to parse through the record to
find requisite support for appellant's own proposed
findings and its generic blanket responses to the
government's proposed findings. The government
was also deprived of the intended opportunity to
join issue with appellant on disputed matters.
Without substantive guidance from appellant, the
Board does not intend to sua sponte conduct an
independent examination into the voluminous
record compiled over the course of the 11 days of
hearing
to
assess
whether
appellant's
unsubstantiated denials, etc., potentially are
supported somewhere in that record. Both parties
were expressly put on notice of their duties
regarding detailed, precise refutation of the
opposing party's proposed findings and legal

100a
analyses. To the extent that CANVS has not
complied with the Board's briefing order and has
declined to offer substantive, specific, detailed
objections and replies to the government's
proposed findings (and included record citations),
the Board, in its discretion, has adopted certain
findings (or portions thereof) that have been
proposed by the government with the notation
GPF (Government Proposed Finding), followed by
its number. In general, the citations to the record
provided by the government and set forth in a GPF
have been omitted (but are incorporated by
reference) where the Board has adopted the
finding in whole or in part, as envisioned by the
briefing order.
To the limited extent that
appellant, in compliance with the briefing order,
expressly and precisely objected to the correctness
of government citations set forth in GPFs, the
Board verified the accuracy of the citations and
any other related portions of the record prior to
adopting the GPF (or portion thereof). In the vast
majority of cases, after study of the record, the
Board concluded that the government had
accurately characterized the testimony and record,
contrary to appellant's blanket assertions that the
government mischaracterized it.
In effect,
appellant has not substantively responded with
detailed counter citations and precise reasons why

101a
the record was "mischaracterized" by the
government or proposed contrary findings revising
the language considered objectionable. It has
failed to join issue in a constructive, precise and
detailed manner that assists the Board in
identifying and resolving key factual differences.
For the above reasons, the government's motion to
strike has merit and the Board has taken the
above remedial actions.
II. Jurisdiction: Statute of Limitations
The government contends that appellant's
breach claim was time-barred under the CDA's sixyear statute of limitations. The CDA requires a
claim to be submitted to the contracting officer
within six years after its accrual. 41 U.S.C. §
7103(a)(4)(A). FAR 33.201 defines claim accrual as
"the date when all events, that fix the alleged
liability of either the Government or the contractor
and permit assertion of the claim, were known or
should have been known. For liability to be fixed,
some injury must have occurred. However,
monetary damages need not have been incurred."
It is undisputed that appellant filed its claim with
the contracting officer on 6 June 2011 (finding
180). Therefore, to be timely for purposes of the
CDA, claim accrual must not have occurred prior
to 6 June 2005.

102a
According to the government, the facts fixing its
alleged liability for improper disclosure of
appellant's technical data were known or should
have been known by 5 April 2005, the date upon
which Mr. Walkenstein became aware that the
information was disclosed as part of the Hosek
Poster presented at a Congressional Staffer Day
event in February 2005. The government argues
that the Hosek Poster was materially similar to
the SOFIAFBI conference poster at issue
presented at the June 2005 National SBIR
Conference underlying appellant's breach cause of
action; that the Hosek Poster lacked any
restrictive markings; that the technical data was
disclosed in contravention of restrictions imposed
by appellant's "Confidential Legend" in the
monthly report; and that Mr. Walkenstein did not
authorize the disclosure.
Therefore, the
government argues that a potential claim for
breach of the 7018 clause under the SBIR Phase II
contract accrued more than six years prior to its
submission to the contracting officer and is
untimely under the CDA's statute of limitations..
(Gov't hr. at 179-83)
Appellant counters that its breach claim did not
accrue on 5 April 2005 because it suffered no
injury when the government presented the Hosek

103a
Poster to Congressional staff at the February 2005
event. Appellant argues that Mr. Walkenstein was
fully aware of the presentation and actively
communicated with individuals associated with
the event Appellant also argues that it approved
and authorized the disclosure based on the belief
that the information would be protected in
accordance with the contract. (App. hr. at 8-9)
As the proponent of its affirmative defense, the
government bears the burden of proving that
appellant's claim was time-barred by the CDA's
statute of limitations. Public Warehousing
Company, K.S.C., ASBCA No. 59020, 16-1 BCA
36,366 at 177,270. To determine the claim
accrual date, we examine the legal basis of the
claim. Id. at 177,271.
Here, the 6 June 2011 claim asserted a monetary
demand for the government's alleged breaches of
release restrictions imposed by appellant's
"Confidential Legend" markings and the 7018
clause in technical data packages provided under
the SBIR Phase II contract. The underlying basis
for appellant's claim is that the government
disclosed, without the consent of appellant,
proprietary information contained in the technical
data packages to competitors to the detriment of
appellant's business. Specifically, the claim cited

104a
to the government's display, in particular, of
photographs and materials taken from monthly
report No. 8, submitted pursuant to the SBIR
Phase II contract, at the June 2005 SOF/APBI
conference to competitors and non-government
personnel, which appellant alleged was an
unauthorized release "that was in violation of the
Limited Rights nature of the delivered technical
data package" and the "Confidential Legend"
marking.
Generally, a cause of action for breach of
contract accrues at the time of the breach.
Parsons-UXB Joint Venture, ASBCA No. 56481,
09-2 BCA ¶ 34,305 at 169,459 (citing Franconia
Associates v. United States, 536 U.S. 129, 141-42
(2002)). Paragraph (a)(14) of the 7018 clause
defines the term "Limited rights," in part, as the
"rights to use, modify, reproduce, release, perform,
display, or disclose technical data, in whole or in
part, within the Government. The Government
may not, without the written permission of the
party asserting limited rights, release or disclose
the technical data outside the Government."
According to appellant, its "Confidential Legend"
marking restricted the retransmission of technical
data without its express written consent. Thus,
the events that fix the government's alleged

105a
liability for breach of contract and start the
running of the statute of limitations are the
government's disclosure of the technical data
"outside the government" without permission.
The 5 April 2005 email from Mr. Piazza
informed Mr. Walkenstein that the government
intended to use information in the "Hosek Poster"
displayed at the congressional event for the
upcoming National SBIR Phase II Conference
(finding 118). The government's contention that
the claim accrued on this date because appellant
learned of an unauthorized disclosure of its
technical data at the congressional event lacks
merit. The email fails to show that appellant
disapproved of the display of the "Hosek Poster'' as
the government suggests. Nothing in the record
demonstrates, and the government points to no
evidence, that the congressional event was open to
audiences other than congressional staff, or in
other words, persons outside of the government.
Under the circumstances here, appellant had a
reasonable expectation of confidentiality that its
technical data would be protected at the
congressional briefing. In contrast, the June 2005
SOF/APBI conference included industry vendors
and foreign representatives, and potential
competitors. Ina 6 April 2005 email, Mr. Piazza

106a
requested Mr. Walkenstein to remove all
proprietary information from the Hosek Poster so
as to permit the government to release the poster
to the public (findings 119-20). We can reasonably
infer that the government did not view the
congressional event as a public event. For the
foregoing reasons, the government has not proven
that appellant's claim accrued on 5 April 2005.
The exhibition hall which displayed the
SOF/APBI poster was open beginning 7 June 2005
(finding 124). Appellant was required to file its
claim with the contracting officer no later than six
years from this date or 7 June 2011. Accordingly,
appellant's 6 June 2011 claim was timely.
III.Breach of Contract
To establish entitlement to recover for breach of
contract, appellant has the burden to prove the
elements of liability, causation, and resultant
injury. Mylene Will Company L.L.C., ASBCA No.
58154, 13 BCA ¶35,415 at 173,749 (citing
Wunderlich Contracting Co. v. United States, 351
F.2d 956, 968-69 (Ct. Cl. 1965)); Action Support
Services Corp., ASBCA Nos. 46524, 46800, 00-1
BCA ¶ 30,701 at 151,682 (appellant, as proponent
of its breach claim, must prove the nature and
extent of government's breach, the damages

107a
suffered, and the causal link between the
government's breach and claimed damages); Ship
Analytics International, Inc., ASBCA No. 50914,
01-1 BCA ¶ 31,253 at 154,353 (citing Cosmo
Construction Co. v. United States, 451 F.2d 602,
605 (Ct. CL 1971)) (in entitlement hearing,
appellant still had to prove that some damage
occurred to support a finding of liability).
Under the SBIR Phase II contract, appellant
was obligated to deliver monthly reports and,
pertinent to this dispute, two CNVS-5050 and one
CNVS-4949 contrast enhanced (retrofit) goggles
(findings 85, 87). Of relevance to this dispute,
monthly report No. 8 delivered by appellant under
the contract affixed a restrictive marking requiring
the express consent of appellant prior to disclosure
or release of its contents (finding 93). The 7018
clause, at the time of contract award, granted the
government
a
royalty-free,
worldwide,
nonexclusive, irrevocable rights in the delivered
technical data. Paragraph (a)(19) of the 7018
clause defined technical data, in part, as "recorded
information, regardless of the form or method of
the recording, of a scientific or technical nature."
There is no dispute that the APBI Poster contained
technical data, including four photographs which
originated from monthly report No. 8 (findings

108a
112, 137). Appellant did not expressly consent or
approve of the display of the APBI Poster (finding
125).
Appellant argues that, by disclosing its
technical data, the government did not comply
with 7018 clause. The parties have significant
disagreement over the proper interpretation of the
clause, including, but not limited to, what bundle
of rights to the data the government received;
whether the restrictive markings in monthly
report No. 8 were non-conforming; and whether
the data was first "'generated" under the contract
as that term is defined under the clause. For
purposes of this opinion, we determine that
resolution of the parties' conflicting contentions
regarding these issues is unnecessary to decide the
merits of these appeals. Assuming, arguendo, that
the government did not technically comply with
the 7018 clause when it displayed the APBI Poster
at the SOF/APBI conference, appellant has not
demonstrated, by a preponderance of the evidence,
that it suffered some injury or damages and that
any such alleged damages claimed were caused by
the government's disclosure to support its breach
claim.

109a
Appellant claimed $100 million, plus interest,
in damages for the government's disclosure and
release of alleged proprietary or trade secret
information in the APBI Poster to non-government
and foreign entities. The underlying premise is
that this disclosure caused competitive harm to
appellant. To support its contention, appellant
first argues that the APBI Poster disclosed specific
features and components embodying the CNVS4949 and CNVS-5050 goggles that were allegedly
unknown to the public prior to June 2005.
Alternatively, it argues that the disclosed features
and components would allow a person skilled in
the ordinary art to reconstruct and manufacture
an identical replica of the goggles. For the reasons
set forth below, appellant has not proven either
assertion.
A. The alleged proprietary features and
components of the CNVS-4949 goggle
disclosed in the APBI Poster were either
publicly available or common knowledge in
the night vision technology industry.
Appellant specifically identified the following
features and components disclosed in the APBI
Poster as proprietary or trade secrets:

110a
(1)A red-color photograph identified as the
view from one optical channel of a
binocular night vision goggle;
(2) A green-color photograph identified as
the view from the other optical channel
of a binocular night vision goggle;
(3) The phrase "12 tubes utilizing different
color phosphors" confirmed the use of
red-color
phosphor
screen
image
intensifier tube in one optical channel of
the binocular night vision goggle and the
use of a green-color phosphor screen
image intensifier tube in the other
optical channel;
(4) Independent variable gain control for
each image intensifier tube;
(5) The multi-color photograph along with
the words "constructed lifelike view'' in
the caption illustrated the combining of
the red-color image from one eye of the
observer and the green-color image from
the other eye in the brain of that
observer;
(6) The red sliver in the multi-color
photograph illustrated the combining of

111a
the red-color photograph and the greencolor photograph;
(7) The reflections from the objective lenses
of the goggle in the upper left photograph
indicated the presence of red-and greencolor filters; and
(8) The phrase "filtering optimized to
present
more
lifelike
color''
in
combination with the phrase "color
imaging systems provide improved
contrast and color output using only the
image intensification band" confirmed
the use of separate red- and green-color
filters.
(Finding 127) Information in the public domain or
that is common knowledge in an industry cannot
be considered proprietary or a trade secret. See
Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470, 475
(1974) (trade secret must be secret); PAW &
Associates, LLC, ASBCA No. 58534, 15-1 BCA if
36,078 at 176,174 (alleged proprietary technique or
process was publicly disclosed); Mobile Medical
International Corp. v. United States, 95 Fed. Cl.
706, 739 (2010) (information no longer proprietary
if publicly disclosed). Additionally, there is no
protectable interest over information that can be

112a
readily discovered through published materials or
by independent invention, accidental disclosure, or
"reverse engineering." Kewanee Oil, 416 U.S. at
476. Moreover, disclosure of a trade secret to
others, who have no obligation to protect the
confidentiality of the information, forfeits any
protectable interest. Ruckelshaus v. Monsanto Co.,
467 U.S. 986, 1002 (1984) (citations omitted).
We begin our analysis by assessing whether the
above-listed eight alleged features and components
disclosed in the APBI Poster were proprietary or
trade secrets. Prior to the June 2005 SOF/APBI
conference, Mr. Walkenstein, at the request of Mr.
Piazza to remove all proprietary information to
permit release to the public, prepared and
submitted two edited versions of the "Hosek
Poster" on 6 April 2005 which perforce did not
contain proprietary information-the Sanitized
Poster and the Alternate SBIR.Poster (findings
120-21). Consequently, element (4) above is not
proprietary. Under the "Description" section, the
"Sanitized Poster'' and "Alternate SBIR Poster"
both disclosed that the goggles were equipped with
independent variable gain for each channel
(finding 121). Further, appellant advertised on its
website in February 2005 the "independent
manual gain control" feature of the CNVS-4949

113a
goggle (findings 107, 169), and therefore, publicly
disclosed it. Consequently, element (7) is also not
proprietary. The APBI Poster included a colored
photograph of the CNVS-4949 goggle (finding 160).
Appellant appears to assert that inclusion of a
colored photograph revealed the color of the
external filters on the end of each channel of the
goggle and was protectable.
However, the
government acquired the CNVS-4949 goggle as a
deliverable under the Phase II contract (finding
87), and appellant sold the goggle to others prior to
June 2005 (finding 106). The color of the external
filters would be readily ascertainable when a
purchaser observes the physical goggle (finding
154). Therefore, there is nothing "secret" about this
feature.
With respect to elements (1) and (2), appellant
concedes that a green phosphor producing a green
image and a red phosphor producing a red image
are not protected technical data (app. br. at 33).
The Sanitized Poster and the Alternate SBIR
Poster used the phrases "I2 tubes utilizing COTS
components" and "I2 tubes utilizing COTS
phosphors," respectively (finding 121), compared to
the APBI Poster's description of "I2 tubes utilizing
different color phosphors" (findings 127, 165).
Appellant argues that element (3) combined with

114a
elements (1) and (2) revealed its use of a green
phosphor tube in one channel and a red phosphor
tube in the other channel to produce these images
which was previously unknown to the public (app.
br. at 33-34). We disagree. The record establishes
numerous instances in which red and green
phosphor tubes were utilized prior to June 2005.
For example, NVSED designed a similar binocular
night vision goggle having a green phosphor tube
in one channel and a red phosphor tube in the
other channel, resulting in the development of the
chromatic PVS-5 goggle in 1987. The PVS-5 goggle
provided a green-colored scene in one channel and
a red-colored scene in the other channel. (Findings
32-39) Appellant's expert witness, Mr. Gillespie,
recalled observing the displayed PVS-5 goggle at
NVSED prior to 2000 and noted the two different
colored phosphor tubes (finding 40). Additionally,
the 1992 Field Patent disclosed the simultaneous
presentation of a reddish image in one optical
channel and a greenish image in the other optical
channel of a binocular night vision goggle (finding
41). Other patents and inventions in the field
taught the use of different colored phosphors in
image intensification tubes (see findings 22-25).
Appellant filed two applications to obtain patent
protection for
its
technology
that
were
subsequently rejected by the U.S. Patent and

115a
Trademark Office for lack of patentability and
obviousness in light of prior art such as the 1992
Field patent (finding 42). Appellant has failed to
rebut any of this evidence to show that elements
(1), (2), and (3), individually or in combination,
were not publicly known or common knowledge in
the industry.
With respect to elements (5) and (6), appellant
claims that the multi-colored photograph with the
caption "Constructed life-like image illustrates the
effect of CNVS-4949" in the poster and the red
"sliver" bordering the image revealed its technique
of combining the red-colored and green-colored
images corresponding to elements ( 1) and (2). The
APBI Poster did not reveal any of the particular
computerized techniques or methods used to
construct the image (finding 144).
Both the
Sanitized Poster and the Alternate SBIR Poster
contained the same multi-color photograph but did
not include the red "sliver" along the border of the
image and does not use the phrase "life-like image"
in the caption. However, the term "life-like" was
included in all three versions in the "Description"
section. (Findings 161, 179) Therefore, the only
conceivable critical difference between the APBI
Poster and the edited versions is the red "sliver"
along the border of the multi-colored photograph.

116a
Appellant argues that this is "the result of the
imprecise overlay of a red image on a green image
and ·exposes the entire secret of the CANVS
goggle, i.e. the overlay of offset red and green
imagery to produce color" (app. br. at 34-35). The
threshold issue is whether combining or "overlay"
of red and green images taken from elements (1)
and (2) was publicly unknown and unique to
appellant. Creation of multi-spectral scenes to
generate color was performed in the night vision
technology field prior to June 2005 (findings 44-48,
50-52).
Even one of
appellant's competitors
submitted a SBIR Phase II proposal that described
a multi-spectral night vision system where an
image from [R E D A C T E D R E D A C T E D R E
D A C T E D R E D A C T E D R E D A C T E D] in
2002 (finding 51). While this proposal was not
publicly available, it demonstrates that appellant
was not the only entity creating multi-spectral
scenes by combining or "overlay" of images.
Appellant's expert admitted that other entities in
the industry were aware of this approach (id.).
Nothing in the record leads us to conclude that the
practice to create a multi-colored image was
something unique to appellant to warrant
proprietary or trade secret protection.

117a
With respect to element (8), appellant asserts
that the phrase "filtering optimized to present
more lifelike color" in combination with the phrase
"color imaging systems provide improved contrast
and color output using only the image
intensification band" confirmed the use of separate
red and green colored filters. The Sanitized Poster
and the Alternate SBIR Poster contained
materially the same language except that these
two versions included the phrase "spectral
selection" rather than the word "filtering" (finding
179). The government's expert, Dr. Waxman, noted
that the term "filtering" could include spectral
filtering, filtering with polarizers, and modulating
any part of the tube (finding 162). Moreover, it was
generally known in the industry that multiple
"filtering" techniques could be used to obtain color
(finding 161). Appellant's expert, Mr. Gillespie,
declined to opine on whether the information in
the APBI Poster was proprietary (finding 150). He
stated that spectral filtering of intensifier tubes
was commonly known prior to June 2005 (finding
162). The APBI Poster did not disclose the specific
characteristics and properties of the filters used by
appellant to obtain the photographs (finding 158).
After weighing the evidence, we determine that
appellant has not sufficiently demonstrated that

118a
the change from "spectral selection" to "filtering"
disclosed proprietary information.
In conclusion, appellant has not carried its
burden of proving that any of the features and
components of the CNVS-4949 goggle, individually
or in combination, were proprietary. Additionally,
unlike the Sanitized Poster and the Alternate
SBIR Poster, the APBI Poster did not explicitly
reference the CNVS-5050 goggle. Therefore,
appellant has failed to demonstrate that the APBI
Poster disclosed proprietary features and
components of the CNVS-5050 goggle.
B. Appellant has not demonstrated that the
APBI Poster enabled a person of ordinary
skill in the art to construct the CNVS-4949
and CNVS-5050 goggles.
Alternatively, appellant argues that the APBI
Poster disclosed a combination of features and
components that enabled a person of ordinary skill
in the art to assemble an exact replica of the
CNVS-4949 goggle (app. br. at 33-35).
A
protectable interest in the combination of
characteristics and components that is unique and
affords a competitive advantage may arise even
though the characteristics and components
individually are publicly disclosed or common

119a
knowledge in an industry. Mobile Medical, 95 Fed.
Cl. at 734 (citing 3M v. Pribyl, 259 F.3d 587, 59596 (7th Cir. 2001)) (combination of publicly known
characteristics and components that is unique and
affords a competitive advantage is protectable); see
also Tewari De-Ox Systems, Inc. v. Mountain
States/Rosen, L.L.C., 637 F.3d 604, 613 (5th Cir.
2011) (combination of disclosed technologies could
constitute a trade secret).
To support its
contention, appellant primarily relies on its expert,
Mr. Gillespie. Although Mr. Gillespie declined to
express any opinion as to whether the APBI Poster
contained proprietary technical data (finding 150),
he asserted that the photographs and textual
narratives in the poster identified the major
components of the CNVS-4949 goggle-the housing
of the goggle; the red and green phosphor
intensifier tubes for each channel; and matching
red and green optical filters affixed to the objective
lenses of each channel (finding 152). He concluded
that access to the poster and a physical
examination of the goggle would enable a skilled
person with ''benchmark data points" to confirm
the proper construction and configuration (finding
170).

120a
As the finder of fact, the Board is responsible
for evaluating the credibility, persuasiveness, and
weight accorded to conflicting evidence in the
record. Pro-Built Construction Firm, ASBCA No.
59278, 18-1 BCA ¶ 36,975 at 180,116. We
determine
that
certain
assumptions
and
conclusions reached by Mr. Gillespie are either
contradicted by his own testimony, successfully
rebutted by the government, or uncorroborated by
any documentary evidence in the record. With
respect to the phosphor tubes, Mr. Gillespie's
analysis is based upon an assumption that the
APBI Poster did not explicitly state that white
phosphor tubes or other colors were used and that
red and green phosphor tubes were well known
(finding 166). However, the colored photographs
did not reveal the exact color of the phosphor tube,
and both Mr. Hosek and Mr. Walkenstein stated a
red phosphor or a white phosphor with an
appropriate filter could generate the red
photograph in the poster (findings 162, 167-68).
With respect to the external filters of the goggle,
the government persuasively rebutted Mr.
Gillespie's report and testimony (findings 162-64).
The APBI Poster did not describe any of the
spectral characteristics, properties, or materials of
the filters used for the photographs (finding 158).
Mr. Gillespie conceded that a skilled person would

121a
communicate a filter's configuration by its filtering
characteristics and not by its color, and that a
filter's characteristics could not be deduced by
viewing the photographs or visual appearance of
the filters (finding 164). Nor has Mr. Gillespie
demonstrated how one skilled in the art could
readily test and validate to confirm the proper
phosphor tube and filter design and configuration,
or the time, effort, and expense to perform such a
validation (finding 170). Other attributes and
components of the CNVS-4949 goggle were not
disclosed in the APBI Poster (finding 171).
We find Mr. Gillespie's conclusions and
assumptions unpersuasive. Appellant has not
established that the APBI Poster enabled a skilled
person to construct the CNVS-4949 goggle. Since
the APBI Poster did not mention or depict any
features and components of the CNVS-5050 goggle
and appellant has not pointed to any other
evidence in the record, appellant has not
adequately demonstrated that the APBI Poster
would enable a skilled person to construct an exact
replica of the CNVS-5050 goggle. Our conclusion
is further strengthened by the fact that neither
Mr. Gillespie nor any of the witnesses at the
hearing knew of any other company that produced
a similar goggle since 2005 (finding 184).

122a
C. Appellant publicly disclosed the use of red
and green phosphor intensifier tubes to
other entities prior to June 2005.
Appellant disclosed its use of green and red
phosphor intensifier tubes prior to the display of
the APBI Poster, and therefore, lost any
protectable interest.
The evidentiary record
reveals numerous instances in which appellant has
voluntarily disclosed the allegedly proprietary
features and components to the public (findings 9596, 173-76). For example, appellant demonstrated
an operable CNVS-4949 goggle at the 2003 FPED
to potential vendors and customers (finding 176).
By demonstrating the functionality of the goggle, a
user would have observed the red and green
phosphor tubes (id.; see also finding 154).
Attendees at the FPEDs were under no obligation
to
protect
the
confidentiality
of
the
demonstrations, and appellant did not require
attendees to execute a nondisclosure agreement or
take other steps to protect its claimed proprietary
features before demonstrating its technology
(findings 175, 177). Mr. Walkenstein also conceded
that his technology incorporating red and green
phosphor tubes was fully developed and available
for sale prior to the SBIR Phase II contract award
(finding 173). Although appellant may not have

123a
marketed or sold the CNVS-4949 or CNVS-5050
goggles prior to the SBIR Phase II contract,
appellant was marketing and selling the
underlying technology. The technology was not
limited or restricted to the CNVS-4949 or CNVS5050 housing and could be retrofitted to any goggle
(id ). Selling the technology in this manner and
publicly demonstrating the operability of its
goggles deprived CANVS of any reasonable
expectation of confidentiality. Cf Mobile Medical,
95 Fed. Cl. at 738 (plaintiff lost secret status of its
product's features when it publicly displayed the
internal elements of its manufactured product at a
trade show).
D. Appellant has failed to prove that it's
claimed damages were caused by the
government’s display of the APBI Poster.
Appellant also has not proved that its alleged
loss of an "income producing asset" resulted from
the display of the APBI Poster. There is no
persuasive evidence of any causative linkage
between the poster's display and the alleged loss.
In its claim, appellant asserted that the
government's disclosure of its alleged proprietary
information at the June 2005 conference harmed
its ability to secure future funding from industry
and the government for its night vision goggle

124a
products. Specifically, appellant cited its inability
to receive a SBIR Phase III award or production
contract from the government. (Findings 180, 183)
However, the government was not obligated to
award appellant a SBIR Phase III contract. See
Night Vision Corp. v. United States, 469 F.3d 1369,
1374 (Fed. Cir. 2006), cert. denied, 550 U.S. 934
(2007) (SBIR statutory provisions did not impose
on the government an obligation to award a Phase
III contract after successful completion of Phase
II.) In fact, government testing demonstrated that
the goggles were unreliable, inadequate, and
subjected users to adverse physiological effects
including headaches (finding 102, see also finding
13).
Additionally, appellant has not pointed to any
evidence that demonstrates that a competitor or
the government has produced a goggle that utilizes
appellant's claimed technology. Mr. Walkenstein's
allegations
that
an
unidentified
Russian
manufacturer or governmental entity was
producing a similar goggle is wholly speculative
and unsupported by any corroborative, much less
persuasive, evidence (finding 185). Highly credible
witnesses who worked for governmental night
vision programs were not aware of any color night
vision goggles being fielded or operated by the

125a
government. Even appellant's own expert could
not identify a single manufacturer who produced a
similar goggle, much less improperly appropriated
appellant's allegedly confidential data (finding
184).
With regard to appellant's alleged damages, we
further observe that appellant never contacted the
cognizant contracting officer or any contracting
official subsequent to the government's display of
the APBI Poster until the summer of 2011
(findings 186-89). There was no opportunity during
the virtually six-year delay between the display of
the poster and the filing of appellant's claim for the
government to inquire into or mitigate any
possible adverse consequences. After appellant
witnessed the display of the poster at the
conference, it continued to advocate for additional
funding from Congress and promote its technology
to organizations such as The Washington Post,
highlighting the June 2005 conference (finding
190). Not until appellant realized that it would not
receive further funding and support from the
government did appellant notify the government of
its claim for breach, one day prior to expiration of
the CDA's statutory deadline. This lack of urgency
from CANVS underscores and is consistent with
the evidence discussed above that it, in fact,

126a
suffered no damages from the government's use of
the poster.
For the reasons stated above, appellant has
failed to show any causal connection between the
government's display of the APBI Poster and its
claimed inability to secure funding and future
awards from the government or any other
competitive harm.
CONCLUSION
Appellant has failed to prove the requisite
elements of liability, causation, and resultant
injury to sustain its breach of contract allegations.
We have fully considered all arguments raised in
appellant's briefs and found them lacking in merit
and insufficient to warrant recovery. Because we
determine that appellant has not carried its
burden to establish breach for the reasons detailed
above, individually and collectively, we need not
discuss additional, alternative arguments raised
by the government supporting denial of the
appeals.
ASBCA No. 57987 is denied. ASBCA No. 57784 is
dismissed as duplicative.
Dated: September 6, 2018

127a

I certify that the foregoing is a true copy of the
Opinion and Decision of the Armed Services Board
of Contract Appeals in ASBCA Nos. 57784, 57987,

128a
Appeals of CANVS Corporation, rendered in
conformance with the Board's Charter.

129a
[ENTERED SEPTEMBER 30, 2016]
ARMED SERVICES BOARD OF
CONTRACT APPEALS
Appeals of -CANVS Corporation
ASBCA Nos. 57784, 57987
Under Contract No. USZA22-03-C-0027
APPEARANCE FOR THE APPELLANT:
Joseph J. Zito, Esq.
DNLZITO
Washington, DC
APPEARANCES FOR THE GOVERNMENT:
Jeffrey P. Hildebrant, Esq.
Air Force Deputy Chief Trial Attorney
Chun-I Chiang, Esq.
Joel B. Lofgren, Esq.
Trial Attorneys
OPINION BY ADMINISTRATIVE
JUDGE PEACOCK ON APPELLANT'S
MOTION TO RECUSE
Appellant has filed a "request" (hereinafter
motion) for Administrative Judge Robert Peacock, the
presiding judge assigned to these appeals, to recuse
himself from further proceedings regarding these
appeals. Appellant alleges that the Board has
"prematurely judged" quantum as evidenced by
statements made in post-trial ex parte settlement
discussions, conducted with the parties with their
permission to promote and encourage settlement. The
government opposes the motion. We deny the motion.
Appellant's allegations are unsupported and baseless.
The scope of the trial encompassed solely entitlement

130a
and jurisdictional issues. The Board has not received
any quantum evidence and perforce has formed no
opinions on the details of appellant's quantum
methodology. The so-called "quantum" discussions
with appellant were generalized and focused broadly
on the need for appellant to greatly reduce its $100
million claim demand for settlement purposes.
Appellant also alleges that it was appellant's
"understanding" that the Board gave the government
"legal advice" regarding instigation of a fraud
investigation
related
to
appellant's
claim
computation during the Board's ex parte discussions
with the government. The basis for this
"understanding" is not indicated and also is
unsupported by affidavit or other sworn statement.
The government opposes the motion and has
categorically denied that fraud was ever mentioned or
discussed at any time between the Board and the four
government representatives who participated in the
settlement discussions with the Board. The charges
lack any rational foundation. An intervening Air
Force Office of Special Investigations investigation is
based on an "in court" statement that has no
relationship to appellant's quantification of its claim.
Background and Procedural Summary
Appellant's accusations that the Board has
prematurely judged the case should be placed in the
context of the posture of the case when the ex parte
discussions with the parties occurred (and with their
permission). Appellant's allegations regarding
recusal were made in June 2016. The principal appeal
(ASBCA No. 57784) was docketed in September 2011.
In February 2012. The second appeal (ASBCA No.
57987) was docketed. Appellant sought $100 million

131a
in damages for alleged improper disclosure of its
allegedly proprietary data.
The judge who initially was assigned the appeals
retired and, on 18 December 2012, the appeals were
reassigned to Judge Peacock. In a pre-trial order
dated 28 January 2013, the appeals were scheduled
for trial on entitlement only, commencing 20
November 2013. Quantum issues were bifurcated for
possible future proceedings in the event that the
Board sustained the appeal with respect to
entitlement and further assuming that decision was
upheld on any appeal.
However, on 20 August 2013, the government filed
a "Motion for Summary Judgment for Lack of
Jurisdiction ... On 20 September 2013, appellant filed
Appellant CANVS Corporation's Memorandum of
Law in Opposition to Respondent's Motion for
Summary Judgment and a Motion to Compel
Discovery or in the Alternative, Motion to Extend the
Discovery Schedule and the Hearing Date (app. opp'
n). On 23 October 2013, the government filed an
opposition to Appellant's Motion to Compel discovery
(resp. opp'n) seeking a protective order.
On 25 October 2013, Judge Peacock convened a
teleconference with parties and issued the following
determinations and orders:
1.
The Board will reserve its rulings on
"Respondent's Motion for Summary Judgment
for Lack of Jurisdiction" and conduct a hearing
on issues related to the Board's jurisdiction, as
well as entitlement to recover.
2.
Appellant will be afforded the
opportunity to review [resp. opp'n], dated 23

132a
October 2013. Appellant shall file its response
to the Resp.'s Opposition no later than 20
November 2013. In addition, no later than 20
November 2013, the government will file its
response to [app. opp'n] dated 23 October 2013.
3.
The scope of discovery was limited to
issues relating solely to jurisdiction and
entitlement. Because quantum issues related
to damages for alleged breaches of appellant's
intellectual property rights will not be
addressed or decided pending the Board’s
decision on jurisdiction and entitlement,
discovery relating to quantum issues will be
deferred for later resolution if jurisdiction and
entitlement are established. Accordingly,
appellant's review of the Resp.'s Opposition
and the government's review of appellant's
Memorandum of Law in Opposition shall
consider the delimited scope of discovery in
their analyses.
4. The hearing scheduled to commence on
20 November 2013 was postponed. The parties
will confer and propose revised date[ s] for the
completion of discovery and accomplishment of
the pre-trial activities set forth in the Board’s
PRETRIAL ORDER of 28 January 2013. In
addition, the parties shall provide the Board
with a separate schedule detailing the dates
for accomplishment of any further discovery.
With respect to discovery generally, the parties
were encouraged to cooperate voluntarily in
assessing and defining the scope of discovery
and the parties' respective responsibilities
related to appellant's electronic databases.

133a
Following completion of discovery, the Board
issued a revised pre-trial order on 16 September 2014,
setting, inter alia, a new hearing date commencing 7
April 2015 addressing solely jurisdictional issues and
entitlement, not quantum. The hearing was
scheduled to be conducted over four days based on the
parties' estimates and preferences. The allotted four
days proved insufficient for completion of the hearing.
The Board and the parties agreed to continue the
hearing and it was scheduled to recommence over a
five-day period beginning 4 May 2015. As a
consequence of various issues that arose during the
second hearing session, it was deemed necessary to
further continue the hearing an additional two days
over the period 17-18 November 2015. The
evidentiary record was eventually closed in the
appeals on 18 November 2015, the final day of trial,
awaiting solely the parties· post-trial briefing of the
appeals.
Following conclusion of the hearing and closing of
the record, Judge Peacock concluded, based on his
initial very tentative reactions to the voluminous
record, that there were litigation risks and
uncertainties for both parties and, consequently,
urged them to consider settlement. To promote and
facilitate possible settlement negotiations, Judge
Peacock requested the parties' permission to engage
in ex parte discussions separately with each party.
Both parties gave their consent for the Board to
engage in those discussions. Accordingly, the Board
indicated it would not set a briefing schedule at that
time and encouraged the parties to devote their
resources to settlement negotiations.
Eventually, two ex parte settlement conferences
were convened by Judge Peacock with each party. The

134a
first of these conferences occurred following the
hearing in November 2015 and the second conference
occurred in mid-June 2016. The initial conference
with appellant was conducted after conclusion of and
on the final day of the hearing and the initial
teleconference with the government was conducted on
24 November 2016.
The Board prefaced its discussions with the
parties by emphasizing that, given the extensive
record as well as the complexities inherent in the
case, any discussions would necessarily be
generalized based only on some of the Board's initial,
very tentative reactions to the case. The Board
informed both parties that neither had a "sure
winner" and that this uncertainty alone warranted a
careful reassessment of their litigations risks. The
parties were further advised that all final Board
determinations manifestly must await detailed
factual analyses and full consideration of the record
and merits of the parties’ positions by a panel of three
(as a minimum) judges, not solely Judge Peacock.
An initial period of communications between the
parties failed to result in settlement. On 17 January
2016, appellant transmitted a letter to the Board
expressing frustration with the pace of negotiations
and requested that the Board order the government
'·to engage in good faith settlement discussions." On
20 January 2016, the government responded that it
was .. not adverse to resolving" the dispute via
settlement but considered that "the monetary offer
advanced by Appellant was inordinately high when
compared to Respondent's own assessment"' and
further that the government could not meet certain
unidentified .. nonmonetary requests" by appellant
"due to statutory and regulatory limitations."

135a
Given the lack of progress toward a settlement,
Judge Peacock, on 19 January 2016 issued a briefing
order requiring the exchange of simultaneous initial
and reply briefs. The initial briefs were to be filed on
3 l March 2016 and reply briefs were due on 30 June
2016. After granting of a one-week extension, the
initial briefs were filed on 7 April 2016. As a result of
filings related to the recusal request that is the
subject of this decision, the filing date for reply briefs
was eventually extended indefinitely.
A second round of agreed ex parte discussions was
initiated by Judge Peacock essentially at appellant's
urging based on its expressions of its dissatisfaction
with the perceived lack of any substantive
negotiations with the government and its
burdensome and growing litigation expenses.
Following filing of the initial briefs, Judge Peacock
determined in early June 2016 that he would attempt
to reestablish communication between the parties to
encourage further settlement discussions based on
the possibility that the parties may have reassessed
their litigation risks as they were preparing their
reply briefs and were more fully apprised of the
strength of the opposing parties' positions on key
factual and legal issues. To that end, Judge Peacock
on 9 June 2016 convened a teleconference with both
parties and again obtained their consent for Judge
Peacock to conduct ex parte discussions with each
party again to explore generally their litigation risks
and promote settlement.
The second ex parte discussion with CANVS
occurred
immediately
following
the
joint
teleconference with both parties on 9 June 2016.
During that ex parte conference with appellant the
only .. fraud-related" comment made by Judge

136a
Peacock to appellant was in the context of possible
actual quantum phase proceedings potentially several
years into the future. The Board merely observed that
if no settlement was timely reached and, assuming
arguendo, that the Board found that it had
jurisdiction and sustained the appeals on entitlement,
and further assuming that the Board's decision was
upheld on appeal, that there would at that time be
concentrated and particularized focus on the details
of appellant's$ l 00 million quantum methodology.
Special care should be made to ensure that the claim
was not exaggerated or inflated. See Daewoo
Engineering and Construction Co. v. United States,
557 F.3d 1332 (Fed. Cir. 2009). The Board noted
generally and without regard to the specifics of
appellant's claim that during this entire ·'prequantum" period and throughout any future quantum
phase proceedings, fraud investigations conceivably
might preclude the contracting officer from engaging
in settlement discussions whether ultimately
warranted and justified or not. Judge Peacock also
noted generally that, in the Board's own experience,
the intervention of fraud investigations can preclude
consummation of settlements. Judge Peacock
encouraged appellant to move forward with the
current negotiations and expressed his opinion that
the government might favorably respond to
substantially reduced offers to settle.
After arranging a mutually agreeable date and
time that fit the Board's schedule and that of the two
government trial counsel, the contracting officer, and
his command legal representative, the Board
conducted its second ex parte teleconference with the
four government representatives on 16 June 20 l 6.
The Board reiterated and reemphasized many of the

137a
points made in the initial November 2015 conference
with the government and encouraged the government
to ·'put an offer on the table."
On 21 June 2016, appellant’s counsel transmitted
a letter to the Board that stated in pertinent part as
follows:
Subsequent to the telephone conference
between the parties on June 9, 2016, counsel
for CANVS again reached out three times to
counsel for The Government to engage in
discussions to resolve the above matter.
Counsel for the Government stated that they
would not discuss resolution due to a "hick-up"
[sic] internal to the Government.
Counsel for the Government would provide
no details as to the nature of the " [hiccup]"' the
duration of the "[hiccup]" nor to explain why
the "[hiccup]" is preventing discussions at this
time.
As the Board has been made aware in
letters from undersigned counsel, CANVS
reached out to the Government beginning in
November of 2015, following the final day of
hearings and offered to resolve this matter for
a small fraction of its actual value. CANVS
state[d] in writing that CANVS was willing to
be extremely flexible in its position. CANVS
has attempted in good faith for six months to
engage The Government in discussions with no
response.
To date, the Government has flatly refused
to engage in any discussions whatsoever, has
refused to make any offer of settlement has

138a
refused to respond to CANVS' s written offer
and is now continuing to refuse discussions,
directly contrary to the Government's
representations to the Board on several
occasions.
Counsel for CANVS demands to know the
full details of the “[hiccup]” referenced by
counsel for The Government.
Government counsel responded by letter to the
Board of the same date in pertinent part as follows:
Relative to counsel for Appellant's letter to
the Board, dated 21 June 2016, Respondent
wishes to inform the Board, as we had so
informed counsel during our telephone
conversation of 20 June 2016. that the
Government is presently unable to participate
in any discussion directed to a resolution of this
matter due to a pending AFOSI (Air Force
Office of Special Investigations) investigation.
See 41 U.S.C. § 7103(c). The undersigned
specifically informed counsel about the
existence of this AF OSI investigation after the
initial comment regarding a "hiccup" in this
attempt to resolve this appeal. The
undersigned is only authorized to disclose the
existence of this AFOS I investigation.
At no time after either ex parte conference with
appellant or prior to 27 June 2016 did appellant allege
that Judge Peacock had prejudged the merits of the
appeals in any way.
Sometime between the government's 21 June 2016
letter and 27 June 2016, appellant allegedly reached
an "understanding" as to what transpired during

139a
Judge Peacock's second ex parte teleconference with
the government. At no time prior to 27 June 2016 had
appellant voiced any concerns about Judge Peacock's
impartiality or pre-Judgement" of issues in dispute
whether during the trial or during the approximately
five-year pre-trial processing of the appeals.
On 27 June 2016 after receiving notice of the
AFOSI investigation, appellant’s counsel filed a
three-page “ex parte communication”·· with the
Board containing the instant ··request'' that Judge
Peacock "'recuse himself from this matter,'· based on
Judge Peacock's alleged '·pre-judgment of the
damages aspect of this matter.'" The letter also
asserted that it was appellant's '·understanding that,
during [the 16 June 2016 ex parte conference with the
government], your honor suggested that the U.S. Air
Force open a fraud investigation against CANVs:· In
addition, appellant asserted, --Further. Your Honor
has provided ex parte legal advice to The
Government's counsel as to strategic legal decisions
in advising or suggesting that the Air Force to open a
fraud investigation against CANVS Corporation.
Your Honor's participation as an advocate for The
Government in these proceedings also independently
warrants your recusal.,. Although the letter was
written as an ·'ex parte communication" appellant
stated "you are free to share it with counsel for The
Government."
The Board forwarded the letter/motion to
government counsel under cover of letter dated 28
June 2016 requesting a response by 28 July 2016. On
the latter date, the government responded in
pertinent part as follows:

140a
During the Board's 9 June 2016 telephonic
conversation with the undersigned, cocounsel..., USSOCOM contracting officer...,
and USSOCOM counsel..., there was no
discussion regarding any fraud investigation
concerning CANVS. The Board did not suggest
the opening of such a fraud investigation, and
the Government did not refer to any fraud
investigation. During the Board's previous
telephonic conversation with the same four
Government representatives on 24 November
2015, there was no discussion regarding any
fraud investigation concerning CANVS.
Further, the four Government employees had
no other contacts with the Board during which
discussions took place regarding any fraud
investigations concerning CANVS.
As for counsel's statement in the first
paragraph of Page 3 that "Your Honor has
provided ex parte legal advice to the
Government's counsel as to strategic legal
decisions in advising or suggesting that the Air
Force to open [sic] a fraud investigation against
CANVS Corporation," it is also incorrect. As
stated above, the Board provided no legal
advice to the four Government representatives
during the telephonic conversation of 16 June
2016, and, in particular, provided no legal
advice concerning any fraud investigation
against CANVS. During the Board's previous
telephonic conversation with the same four
Government representatives on 24 November
2015, there was no discussion regarding any
fraud investigation concerning CANVS.
Further, the four Government employees had

141a
no other contacts with the Board during which
discussions took place regarding any fraud
investigations concerning CANVS.
As indicated in counsel for Respondent's
letter to the Board, dated 21 June 2016, the
Government currently is unable to participate
in any discussion directed to a resolution of this
matter due to a pending AF OSI investigation.
That investigation was prompted by in-court
testimony. That investigation is not directed
towards
Appellant's
initial
damages
assessment asserted in Paragraph 44 of its
Complaint or the calculation of damages set
forth in Appellant's letter to USSOCOM
contracting officer dated 25 July 2011. (R4. tab
14).
….
Irrespective of the assertions set forth in
counsel for Appellant's 27 June 2016 letter,
Respondent holds the strong view that
Appellant has presented no evidence to support
recusal. More importantly, recusal predicated
upon Appellant's baseless accusations would be
detrimental to Respondent whether it results
in a re-trial or encumbering other Board
members to review the record without the
benefit of any in-court assessment of witness
credibility.
There is no further evidence regarding the AFOSI
investigation including when it was initiated. There
is also no evidence as to whether the '·in court"
testimony which is the focus of the AF OSI
investigation was given during the instant Board
proceeding or a court proceeding where CANVS may

142a
currently have, or had, litigation pending. However,
there is no known, relevant AFOSI investigation to
date that is focused on appellant's calculation,
quantification, and certification of the amount
claimed in these appeals.
On 29 July 2009, appellant requested, inter alia,
that the Board direct ·'full disclosure'· by the
government of the details of the AFOSI investigation,
without addressing the government's categorical
denial of appellant's allegations and “understanding"
of what transpired during Judge Peacock's ex parte
discussions with the government.
On 3 August 2016, the Board requested that
appellant provide its response to the government's
letter of 28 July 2008 as relevant to recusal and/or
advise of any withdrawal of its recusal request. The
response was to be submitted by 11 August 2016. By
letter of 1 1 August 2016, CANVS indicated that it
declined to withdraw its request.
DECISION
Appellant has cited no statutory provisions, cases
or other legal guidelines, standards or authorities for
recusal in its three-page motion in support of its
request. The Board has previously looked to
standards, inter alia, established in 28 U.S.C. § 455(a)
for guidance where a party seeks disqualification of
the presiding administrative judge. Section 455(a)
provides that .. [a]ny justice, judge or magistrate
judge of the United States shall disqualify himself in
any proceeding in which his impartiality might
reasonably be questioned.·· While strictly speaking
the statute is inapplicable to administrative judges
appointed pursuant to the Contract Disputes Act
(CDA). 41 U.S.C. §§ 7101-7109, the Board has case

143a
law interpreting that provision to be useful guidance
in deciding recusal motions in analogous
circumstances. See, e.g., Johnson & Son Erector Co.,
ASBCA No. 23689, 86-2 BCA ¶ 18,931 at 95,590; AEI
Pacific, Inc., ASBCA No. 53806, 04-2 BCA ¶ 32,635 at
161,483; see also Liteky v. United States, 510 U.S. 540,
555-56 (1994); Corners and Edges, Inc., ASBCA No.
55611 et al., 10-1 BCA ¶ 34,326 at 169,530;
Environmental Safety Consultants, Inc. , ASBCA No.
58343, 14-1 BCA ¶ 35,737. Here, however, extensive
analysis of the case law is not warranted. The motion
is baseless, unsupported by any persuasive evidence,
and is without merit. The alleged bases and lack of
evidentiary support for recusal offered by appellant
wholly fail to reasonably bring into question Judge
Peacock's impartiality.
Appellant's motion is based on Judge Peacock's
alleged “prematurely formed” opinions regarding the
quantum of appellant's claim. It is founded almost
exclusively on appellant's alleged, but wholly
unsubstantiated, “understanding” that fraud related
to the quantum of appellant's claim was discussed
with the government during pre-approved, ex parte
discussions*· expressly authorized by each party to
promote settlement. Appellant's allegations lack any
foundation. As unequivocally stated by the
government there was no mention of fraud in either
*It

should be emphasized that both parties freely consented to
Judge Peacock's conferring separately with each party in an
effort to further the CDA's goals of ·'informal, expeditious and
inexpensive" resolution of disputes. See Judicial Canon 3.A(4)(d)
which in part states: "A judge may with the consent of the parties
confer separately with the parties and their counsel in an effort
to mediate or settle pending matters." Appellant does not object
to the conduct of such ex parte conferences, only their alleged
content.

144a
of its two ex parte teleconferences with the Board or
at any other time. There could have been no rational
“understanding” to the contrary. Not only was there
no mention of fraud by any participant, any such
comments allegedly made by Judge Peacock would
contravene the very purpose of conducting the ex
parte conferences with the government, i.e .. to
encourage and promote post-trial settlement
negotiations. The allegations that Judge Peacock or
any government participant in the ex parte
teleconferences
discussed
fraud
have
been
categorically rejected by the government and are
unsupported by affidavits as to how appellant reached
its ·'understanding'· regarding what allegedly
transpired in ex parte discussions with the
government. Even in the face of the government's
categorical rejection of appellant's contentions,
appellant failed to respond with any basis for its
accusations. Any settlement discussions were not ..
curtailed'. as a consequence of any ex parte comments.
They ended because of the pending AFOSI
investigation as to which the Board had no knowledge
prior to the government's 21 June 2016 letter to the
Board.
All ex parte comments to both parties were made
solely in the context of promoting settlement and from
the perspective of litigation risks associated with
entitlement
and
jurisdiction.
As
appellant
emphasizes, quantum evidence was not presented at
trial because it was confined to those jurisdictional
and entitlement issues. The Board has received no
quantum-related evidence and perforce has no
opinions on the details and methodology of appellant's
quantification of the amount claimed. The Board's

145a
entitlement decision will not encompass any such
details.
During both ex parte discussions of ·'quantum"
with appellant, the remarks were simply generic and
pragmatic observations that appellant should
earnestly consider reducing significantly the $100
million amount claimed for serious settlement
discussions to move forward at the entitlement stage
of the litigation. The focus of the ·'quantum"
discussions with appellant simply and generally was
to promote reasonable settlement offers considerably
below the $ 100 million claimed, particularly given
the uncertainties and complexities of the
jurisdictional and entitlement issues presented as
well as the realistic length of time that would elapse
before commencement of any actual quantum
proceedings, assuming arguendo that such quantum
proceedings ultimately occurred.
It should also be noted that the alleged
··premature" conclusions in its ex parte discussions
with the parties were purportedly drawn after
extensive motion practice, after 11 days of trial and
the closing of the voluminous record, and after filing
of initial briefs, over 5½ years after the docketing of
the principal appeal. Cf AEI Pacific, 04-2 BCA ¶
32,635 at 161,486 (the Board deemed presiding
judge's comments on testimony and record developed
in the course of trial prior to its completion to be ..
normal in settlement negotiations .. and that. .. A
reasonable and informed person would not infer, from
the fact that the judge communicated her impressions
as of a certain point in time, that she could not decide
(or participate in deciding) the appeal after the record
was complete'"). All remarks by Judge Peacock were
preliminary and tentative and prefaced by the

146a
express proviso that Judge Peacock reserved all final
factual and legal determinations until the full
chronology of critical events were thoroughly
analyzed in context by the Board, after full briefing of
the appeals. See Goya Foods, Inc. v. Unanue-Casal,
275 F.3d 124, 130 (1st Cir. 2001), cert denied, 532 U.S.
1022 (2002).
In short, there were (and are) no ·”prematurely
formed” opinions on any issues in the appeals. Any
Board decision will be based solely on the merits.
The grounds for disqualification raised by
appellant have no merit. It is well settled that ·'
[t]here is as much obligation upon a judge not to
recuse himself where there is no occasion as there is
for him to do so when there is.'" In re Union Leader
Corp., 292 F.2d 381, 391 (1st Cir. 1961); Hinman v.
Rogers, 831 F.2d 937, 939 (10th Cir. 1987); Brody v.
President & Fellows of Harvard College, 664 F.2d 10,
12 (1st Cir. 1981), cert. denied. 455 U.S. 1027 (1982).
The motion is denied.
Dated: 28 September 2016

147a

I certify that the foregoing is a true copy of the
Opinion and Decision of the Armed Services Board of
Contract Appeals in ASBCA Nos. 57784, 57987,
Appeals of CANVS Corporation, rendered in
conformance with the Board's Charter.

148a
My name is Chris Powell, I have 14 years
experience as a US Army Special Forces Operational
Detachment Member, as well as duty on General
Officer Staffs at US Army Special Forces Command
and US Army Special Operations Command. My US
Army Special Forces service included numerous night
operations involving the extensive use of various
night vision related technologies including both
Starlight and Thermal goggles, and weapons sights.
While serving as a staff member at SF Command and
USASOC I was involved in advising the Commanding
General and his staff, on Force Modernization
technologies as it relates to Night Vision. I have an
extensive background using Generation I, II and III
passive night vision goggles and telescopic weapons
sights, I also have evaluated various models of
Generation II and Generation III equipment for use
and development of tactics for use in Urban
Operations such as Close Quarters Combat inside of
buildings.
I have 18 years of manufacturing experience
including research and development in the fields of
computer networking, radio communications, Closed
Circuit TV Cameras, Body Armor and Vehicle Armor
systems, Individual Soldier Equipment, which
includes
product
development,
product
manufacturing, and sales.
I was the Co-Founder and Vice President of
Patriot Performance Materials (PPM) Corporation, a
North Carolina based Veteran Owned Small Business
located at 3301 Industrial Drive, Sanford, NC 27332.
PPM's primary business was the production of state
of the art soft and hard armor products for individuals
and vehicles. PPM also had extensive capabilities and
expertise in the areas of textile development,

149a
production manufacturing, and Ceramic Composite
Body Armor Plates. PPM was a Prime Contractor and
performed a $29,000,000 TACOM contract Armoring
Heavy Trucks in Kuwait from 2005 to 2006, I also CoFounded Patriot Group International, Inc., which
provided K-9 Detection Dog Teams in Afghanistan
and Iraq and performed a two year, multi-million
dollar contract in support of the US Government’s
security requirements at remote bases. I also CoOwned Southeast Air Charter, Inc. which operated as
a FAA Part 135 Air Carrier and was contracted by
USSOCOM for aircraft to provide HALO training
support for Special Forces and Navy SEALS.
PPM's primary customer was the US Military with
emphasis on the Special Operations and Intelligence
Communities.
PPM became aware of CANVS Color Night Vision
Goggles through discussions between PPM and its US
Special Operations and Intelligence customers. As
PPM was a well respected and established
manufacturer and supplier of armor and textile
products to various US Government customers at the
time, there was great interest expressed by the PPM
customers that PPM could help bring CANVS Color
Night Vision Goggles to full production so this much
needed and very well received capability could be
delivered to the end users.
CANVS and PPM entered into confidential
discussions about how to transition the CANVS Color
Night Vision Goggle technology into full production.
Through a series of briefings and demonstrations,
CANVS educated PPM with regards to the history of
the development, the CANVS Government and
CANVS Industry interactions, and the technical

150a
details necessary for PPM to establish the capabilities
necessary to manufacture a production Color Night
Vision Goggle.
PPM had extensive experience associated with the
problems that Small Business encounters when
dealing with the US Military and large defense
contractors. CANVS made sure that there were no
surprises during the PPM/CANVS due diligence
process. CANVS was absolutely open and honest with
PPM on all of the issues identified by CANVS as
potential sticking points and areas of concern
associated with being able to successfully
manufacturing the production Color Night Vision
Goggles.
PPM was initially not unduly concerned as many
of the issues were familiar to PPM prior to discussions
with CANVS. PPM took the due diligence process
very seriously as we were in negotiations with
CANVS to obtain exclusive rights to the CANVS Color
Night Vision technology for an upfront payment of
$5,000,000 (in recognition of the work already done by
CANVS entirely at CANVS expense during the
development of the capability) and 10% of future
sales.
Clearly, PPM would not have entered into or
continued these discussions if PPM's initial due
diligence did not reveal that PPM believed that it
could recoup its initial investment of $5,000,000 in a
timely manner, and create a significant revenue
stream for both PPM and CANVS moving forward.
This expectation was based on the response to the
product by the various end user communities that
PPM was doing business with at the time of these
discussions.

151a
During the negotiation process, CANVS was
recognized by SOCOM and The Small Business
Innovative Research (SBIR) Program for its Color
Night Vision Goggles as the recipient of an "SBIR
Success Story Award". Further proof of the US
Government end users enthusiasm for the CANVS
Color Night Vision Goggle Technology.
CANVS continued to try and secure production
procurement for its Color Night Vision Goggles
during the PPM CANVS negotiations. CANVS was
invited to participate in the 2005 International SOF
Week and APBI Conference Tampa Convention
Center on June 6th-10th, 2005, an event hosted by US
SOCOM in Tampa Florida. At this conference
Jonathan A Walkenstein, President of CANVS
Corporation
met
with
numerous
SOCOM
representatives to discuss potential funding sources
for production level purchases of the CANVS Color
Night Vision Goggles.
Mr. Walkenstein called me on Wedneday June 8th
2005 from the Night Vision and Electronic Sensors
Directorate (NVESD) Fort Belvoir Virginia booth at
the conference. Mr. Walkenstein appeared to be
extremely upset at what was on display.
Mr. Walkenstein told me, and later provided
photographic evidence documenting the disclosure,
that CANVS Proprietary technical details (covered
under the limited data rights clause in the CANVS
SOCOM SBIR contract in question) associated with
the CANVS Color Night Vision technology were on
display. Mr. Walkenstein also told me that a CANVS
Color Night Vision Goggle was being demonstrated by
NVESD personnel manning the booth, notably, all
CANVS markings were removed from the Goggle. It

152a
is my understanding that NVESD and SOCOM were
claiming that the technology was developed by
NVESD and SOCOM with no mention of CANVS
Corporation (From my observation of the photographs
provided by Mr. Walkenstein, NVESD chose to refer
to the Color Night Vision Goggles by the CANVS
Trademarked
name,
CNVSTM-4949
without
acknowledgement of CANVS). In my opinion, Mr.
Walkenstein had good reason to be upset as CANVS
industry competitors, Foreign industry, and Foreign
Military representatives were present at the NVESD
booth.
PPM had numerous reasons to be highly concerned
over the NVESD/SOCOM disclosure:


The CANVS Color Night Vision technical
materials that were released by NVESD and
SOCOM contained sufficient details to allow
the direct competitors to CANVS and PPM to
rapidly develop an identical capability without
the costly research and development required
by CANVS to deliver its first production units.



In addition to the technical information
contained in the poster as it was displayed
(which in my opinion was a clear violation of
the breach of data rights clause in the
CANVS/SOCOM SBIR Contract), attendees
were given ample opportunity to examine and
use the CANVS CNVSTM- 4949 Color Night
Vision Goggles so that a complete
understanding of the importance of the
capability could be ascertained by anyone in
attendance.



The fact that NVESD and SOCOM claimed to
be the inventor of the device (while at the same

153a
time blatantly referring to the system by its
CANVS Trademarked name, “CNVSTM-4949”)
in such a public form, demonstrates to me that
the actions of NVESD and SOCOM were
intentional and caused great concern on the
part of PPM.
Despite the egregious nature of the
NVESD/SOCOM
release
(confirmed
by
Walkenstein on Wednesday June 8th, 2005, and
promptly reported to PPM by CANVS) PPM
continued its due diligence process because of the
importance of the capability and the fact that the
Special Operations and Intelligence communities
still desperately wanted and needed the
capability. PPM agonized over its decision. As late
as July 19th, 2005 PPM was still weighing all of
the information available to make its decision
about the acquisition of CANVS Color Night
Vision Goggle technologies. In the end PPM made
a business decision to not acquire the CANVS
technology because of the exposure that the
NVESD/SOCOM
release
created
was
insurmountable. In addition, our perception that
the activity was intentional indicated a significant
additional hurdle to launch of this technology.
PPM did not have the financial ability to initiate a
multi-year, multi-million dollar lawsuit to defend
the
CANVS
technology
and
to
hold
NVESD/SOCOM accountable for the breach of
Data Rights.
PPM concluded that because of the activities of
NVESD/SOCOM, the CNVS technology was no
longer worth a $5,000,000 purchase by PPM and
withdrew its offer. PPM made a business decision
not to acquire the CANVS technology because of

154a
the exposure that the NVESD/SOCOM release
created was insurmountable and PPM was not
willing to initiate legal actions against SOCOM (a
significant PPM customer) to hold them
accountable for the breach of Data Rights.

